<html>
<title> - THREATS FACING FLORIDA'S TOURISM DRIVEN ECONOMY</title>
<body><pre>[Senate Hearing 115-226]
[From the U.S. Government Publishing Office]










                                                       S. Hrg. 115-226

                            THREATS FACING 
                    FLORIDA'S TOURISM DRIVEN ECONOMY

=======================================================================

                             FIELD HEARING

                               before the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 10, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation








[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
















                Available online: http://www.govinfo.gov
                
                                    ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

29-979 PDF                     WASHINGTON : 2018               
                
                
                
                
                
                
                
                
                
                
                
                
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel   
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                      
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on August 10, 2017..................................     1
Statement of Senator Nelson......................................     1

                               Witnesses

Dr. Paul Sanberg, Senior Vice President, Research, Innovation, 
  and Knowledge Enterprise, University of South Florida; and 
  President, National Academy of Inventors, on Behalf of Judy 
  Genshaft, President, University Of South Florida...............     2
Rick Kriseman, Mayor, St. Petersburg, Florida....................     3
George Cretekos, Mayor, Clearwater, Florida......................     3
Janet Long, Chair, County Commission; and Chair, Tourist 
  Development Council............................................     4
Sherry L. Larkin, Ph.D., Professor, Food and Resource Economics 
  Department, Associate Dean for Research and Associate Director, 
  Florida Agricultural Experiment Station, Institute of Food and 
  Agricultural Sciences, University of Florida (UF/IFAS).........     7
    Prepared statement...........................................     9
Robin A. Sollie, IOM, FCCP--President/CEO, Tampa Bay Beaches 
  Chamber of Commerce............................................    15
    Prepared statement...........................................    18
Maryann Ferenc, Chief Executive Officer, Mise en Place, Inc.; and 
  Member, Board of Directors, U.S. Travel Association............    23
    Prepared statement...........................................    25
Mitchell A. Roffer, President, Roffer's Ocean Fishing Forecasting 
  Service Inc.; and Adjunct Faculty, Florida Institute of 
  Technology, Department of Ocean Engineering and Sciences.......    29
    Prepared statement...........................................    32

                                Appendix

Letter dated August 7, 2017 to Senator Bill Nelson from Terry A. 
  Gans, Mayor, Town of Longboat Key..............................    55
Letter dated August 24, 2017 from Nan Summers, Grants 
  Coordinator, Parks and Natural Resources Department, Manatee 
  County, Florida................................................    57

 
                            THREATS FACING 
                    FLORIDA'S TOURISM DRIVEN ECONOMY

                              ----------                              


                       THURSDAY, AUGUST 10, 2017

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                St. Petersburg, FL.
    The Committee met, pursuant to notice, at 1 p.m. at the 
University of South Florida, St. Petersburg, University Student 
Center, 200 6th Avenue South, St. Petersburg, Florida, Hon. 
Bill Nelson, presiding.
    Present: Senator Nelson [presiding].

            OPENING STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. This meeting of the Senate Commerce 
Committee will commence. Thank all of you for coming. This is 
an overwhelming outpouring of interest in the subject matter of 
today's hearing. Thank you all very much for coming.
    This is an official meeting of the Senate Commerce, 
Science, and Transportation Committee. It is a field hearing.
    As we start the meeting, let's welcome the U.S. Naval 
Suncoast Squadron's Sea Cadet Corps, and they are going to lead 
us in the Pledge of Allegiance.
    Cadets?
    [Pledge of Allegiance.]
    Senator Nelson. And if you will remain standing, I'd like 
to call on Reverend Watson Hayes, Executive Director of the 
Pinellas County Urban League, for the invocation.
    Pastor?
    [Invocation.]
    Senator Nelson. Well, we are so grateful to our host. I 
want to have one of them to say a word before we get started in 
the Committee hearing. Though President Genshaft couldn't be 
with us, we have several of her very capable colleagues from 
the University, and a special thanks to the College of Marine 
Sciences for its high-caliber research into our vast natural 
resources.
    Thanks also to the City of St. Pete, Pinellas County, for 
hosting us and to our colleagues, Kathy Castor, Charlie Crist, 
who represent this area so ably in the U.S. Congress. Thank you 
for being here.
    I'm pleased that so many of our colleagues are here--also 
County Commissioner Janet Long, St. Petersburg Mayor Rick 
Kriseman, Clearwater Mayor George Cretekos, and Dr. Paul 
Sanberg from USF.
    So I'd like to ask, Dr. Sanberg, if you might give us some 
words of greeting.

           STATEMENT OF DR. PAUL SANBERG, SENIOR VICE

         PRESIDENT, RESEARCH, INNOVATION, AND KNOWLEDGE

          ENTERPRISE, UNIVERSITY OF SOUTH FLORIDA; AND

           PRESIDENT, NATIONAL ACADEMY OF INVENTORS,

             ON BEHALF OF JUDY GENSHAFT, PRESIDENT,

                  UNIVERSITY OF SOUTH FLORIDA

    Dr. Sanberg. Sure. Thank you, Senator Nelson.
    Ranking Member Nelson, my name is, again, Paul Sanberg, and 
I'm the Senior Vice President, USF, for Research, Innovation, 
and Knowledge Enterprise, and also President of the National 
Academy of Inventors. I'm honored to be here on behalf of 
President Judy Genshaft and the University of South Florida 
system. It's our great pleasure to host the Senate Commerce, 
Science, and Transportation Committee for this important field 
hearing on the threats facing Florida's tourism driven economy.
    Thank you, Senator Nelson, for bringing us together here at 
the beautiful USF St. Pete campus.
    I'd just like to ask any St. Pete or USF, in general, 
system faculty, staff, students to please stand, just to show 
your support here.
    [Applause.]
    Dr. Sanberg. We would also like to recognize Congresswoman 
Castor and Congressman Crist for their participation in today's 
hearing. Thank you also to St. Pete Mayor Rick Kriseman, 
Clearwater Mayor George Cretekos, and Pinellas County 
Commissioner Janet Long, who have joined us today. Welcome, 
everyone.
    Across the USF system, researchers work daily on solving 
global issues, including the health and sustainability of our 
beautiful natural environment. The people of Florida are served 
by world class independent research institutions which conduct 
the most rigorous and credible science possible. The Federal 
Government is a vital partner in this important endeavor.
    Many of you will remember the important role that science 
played in responding when our tourism economy was threatened 
because of an environmental disaster, the 2010 Deepwater 
Horizon spill. Because our state had invested in research 
vessels operated by the Florida Institute of Oceanography, and 
because we had advanced instrumentation and world class 
expertise, researchers from USF and across Florida were among 
the first to begin an independent analysis of the spill's 
impact.
    In the immediate aftermath of the spill, we are grateful to 
have had the leadership of Senator Nelson, Congresswoman 
Castor, and Congressman Crist to sustain and move this massive 
scientific effort forward. These three public servants played 
pivotal roles that enabled a robust examination of the spill's 
impact to continue. As a result, Florida citizens are more 
informed stewards in our fragile environment.
    Our strong partnership in supporting education and research 
remains one of Florida's most important tools in securing a 
healthy, safe, and successful future. We are delighted to have 
the opportunity this morning to share the research our 
university faculty are working on with the staff from the 
Senate Commerce, Science, and Transportation Committee. We look 
forward to learning more about the Committee's interest during 
this afternoon's hearing, as well as hearing testimony from the 
distinguished panelists.
    Thank you very much.
    Senator Nelson. Thank you so much.
    I'd like to introduce and recognize two family members. 
First of all, my wife of 45 and a half years, Grace Nelson.
    [Applause.]
    Senator Nelson. And Dr. Charles Crist, Charlie's dad. Would 
you stand up and be recognized?
    [Applause.]
    Senator Nelson. Now, we're very fortunate to have our two 
mayors with us, and I want you all to bring us some greetings.
    Mayor Kriseman?

              STATEMENT OF RICK KRISEMAN, MAYOR, 
                    ST. PETERSBURG, FLORIDA

    Mr. Kriseman. Thank you, Senator.
    Good afternoon, everyone. My name is Rick Kriseman. I'm the 
Mayor of St. Petersburg, and on behalf of myself and my City 
Council members, many of which are here with us today, we want 
to welcome you to the Sunshine City of St. Petersburg and to 
the beautiful USF St. Pete campus. My thanks to Senator Bill 
Nelson for his leadership in Washington, his work on this 
important committee, and his strong advocacy for Floridians 
every single day.
    As everyone knows, tourism is vital to our economy here in 
St. Pete and to cities big and small throughout the state of 
Florida. So I thank you, Senator, for addressing threats to our 
tourism-based economy and for your past and future actions to 
prevent such threats.
    Senator Nelson, Congresswoman Castor, and Congressman Crist 
all have strong track records on these issues, and I thank them 
for everything that they've done for our state, our county, and 
our city. And, in particular, I thank them for being such great 
partners with the City of St. Petersburg.
    Welcome, everyone.
    Senator Nelson. Thank you, Mr. Mayor.
    [Applause.]
    Senator Nelson. Mr. Mayor?

             STATEMENT OF GEORGE CRETEKOS, MAYOR, 
                      CLEARWATER, FLORIDA

    Mr. Cretekos. Thank you, Senator. Thank you for being here. 
Thank you to everybody who has joined us.
    You know, Pinellas County, Clearwater, is number one in 
tourism because we understand how important it is for our 
tourist industry partners to work with government, and we thank 
the Federal Government for the leadership that you, Senator, 
and our representatives, Crist and Castor, have provided, and 
even Governor Scott, in making sure that our legislature and 
our residents understand that we are competing not against each 
other, but we're competing against the world to bring tourists 
to Pinellas County, to the state of Florida.
    We've done a very good job with that, and our industry 
partners understand that they are in a service industry, that 
they provide hospitality, and the reason we've been so 
successful is because they and their staffs do that, and we 
would appreciate you all taking that message back to Washington 
and to those in Tallahassee so that they can understand that 
tourism provides jobs and provides growth in the state of 
Florida.
    One other thing I need to mention. We also have to protect 
beach re-nourishment and the importance of offshore oil 
drilling, and, Senator, thank you for your leadership in that 
regard. We cannot allow rumors to circulate around the world 
that Florida is contaminated when that has never been the case.
    So thank you, Senator, for allowing me to be here today.
    Senator Nelson. Thank you, Mr. Mayor.
    [Applause.]
    Senator Nelson. Commissioner?

 STATEMENT OF JANET LONG, CHAIR, COUNTY COMMISSION; AND CHAIR, 
                  TOURIST DEVELOPMENT COUNCIL

    Ms. Long. Thank you, Mr. Chair, and thank you to all of you 
for being here on this glorious afternoon in Pinellas County. 
Senator Nelson, you have been our champion, and we are so 
grateful that you are bringing this United States Committee 
field hearing today on this beautiful campus of USF. As Chair 
of the County Commission this year and Chair of the Tourist 
Development Council, I am grateful and sincerely appreciate 
everyone who is here, taking their time out of their busy 
schedule to attend what is going to be one of the biggest 
issues going forward in our county.
    Tourism is our number one industry, and not only here, but 
throughout the state of Florida. This industry provides to us, 
right here in Pinellas County, 100,000 jobs for our county 
residents, and it drives--are you ready for this? This is a 
really big number--$9 billion, $9 billion in revenue and 
economic impact to this county every single year. In July, it 
was the 47th straight month of year-over-year tourist 
development tax growth for Pinellas County. But the threats 
that this county faces in our industry from beach erosion to 
red tide to the potential of increased offshore drilling, is 
very real.
    So I look forward this afternoon to hearing the testimony 
and hope to get a better understanding of the diversity and the 
severity of the threats that face our industry.
    So thank you, Senator, for your leadership, and our Federal 
delegation. What would we do without you?
    Senator Nelson. Thank you.
    [Applause.]
    Senator Nelson. You might be also interested to know that 
in the midst of everything you see that looks like it's 
dysfunctional in Washington, Marco Rubio and I actually get 
along. And, of course, we invited Marco to come. He could not. 
He's off someplace else. But we do a lot of things together 
that you never see; the appointment of all the academies, the 
appointment of Federal judges, the U.S. attorneys, et cetera.
    By the way, just a word for you until we get into the 
subject matter of the hearing. As a result of what you have 
seen play out over the course of the last couple of weeks in 
Washington, with the dramatic vote of John McCain in the middle 
of the night, with now being able to move on from that subject, 
there was an immediate response in a bipartisan way of a number 
of senators coming together--informal meetings, sit-down 
meetings in each other's offices, and then culminating with a 
dinner just before we left Washington of 14 of us, evenly 
divided, seven and seven, who are talking about the fixes to 
stabilize the existing current law on healthcare.
    So maybe, just maybe, we are seeing a change of the way 
that things have been operated. This being, if successful, a 
prelude to what else can be done down the road on income tax 
reform and desperately needed infrastructure in this country. 
That's not just roads and bridges, but it's airports and 
seaports, it's broadband, it's sewer plants and water plants, 
and so forth, that are so desperately needed.
    Now, the way the Committee usually operates--the Chairman 
makes an opening statement, the Ranking Member makes an opening 
statement, and then the witnesses are introduced, and then we 
go to questions. I have invited my two colleagues in the 
Congress to ask questions with me, and we have a star spangled 
panel today on this subject.
    If you think back, now, why are we here? In large part, it 
has already been addressed by the statements that you've heard. 
But think back to a quarter of a century ago. Southwest of 
where we are right now, 330,000 gallons of number six fuel and 
an additional 32,000 gallons of jet fuel, diesel, and gasoline 
spilled into Tampa Bay. That was just 24 years ago. Two tank 
barges and a ship sat disabled due south of Mullet Key, 
blocking the entrance to the Bay, the main shipping channel. It 
was closed for nine days.
    Oil coated Fort DeSoto Park and Egmont Key almost 
immediately, and then the winds and the tides carried the bulk 
of the fuel out into the Gulf until a storm pulled the mess 
back onto Pinellas County barrier islands, from Redington 
Shores to St. Pete Beach and Boca Ciega Bay. At that time, more 
than 2 million visitors used the boat ramp at Fort DeSoto Park 
each year.
    So it's fitting that today, we are hearing about the 
threats to our state's tourism driven economy and what we can 
do about it to mitigate the risk. Last year, a record 113 
million visitors, both international and domestic tourists, 
came to Florida. The tourism industry supports about a million 
and a half jobs in this state. So there's a lot at stake, and I 
think we'll hear some of that from our panelists today.
    You think about our brand. It's sunshine, it's sea breezes, 
it's white sand beaches, it's family friendly theme parks, and 
it's world class fishing and seafood. So when red tide comes 
along or if toxic algae closes a beach, tourism dollars go 
elsewhere. Hurricanes, oil spills, sea level rise, and Zika 
threaten our brand. But we can take steps to protect our 
tourism industry, and that's what this hearing is about.
    Ever since your Senator was a young Congressman, I've been 
in this fight to protect Florida's unique environment and its 
tourism-dependent economy. Thus, it was quite natural, in a 
bipartisan way, with a Republican senator, my colleague, Mel 
Martinez--in 2006, we enacted into law a moratorium on oil 
drilling off of Florida in the Gulf of Mexico.
    [Applause.]
    Senator Nelson. That moratorium is the only place in the 
entire outer continental shelf of the United States that is off 
limits to oil rigs, and it's off limits until the year 2022. 
The United States Air Force has asked us to extend that another 
5 years to 2027, and they've done so--why? This is the largest 
testing and training area for the United States military in the 
world, and it's unfettered in their ability for all of the 
development of new systems and sophisticated weaponry. They 
have no impediments.
    You take a famous range like the Nevada Test Range. You've 
heard of the secret area there called Area 51. You superimpose 
that over the Gulf test range and it's just a little spot. This 
is the largest testing and training range in the world, and the 
reason the Air Force has asked us to extend it is they want to 
invest in very expensive, updated, new telemetry as they are 
testing these systems, and they want the security of knowing 
that that investment is going to be there so that they've got 
that range for at least 10 years. Yet we are in a fight, 
because the very attempts in the defense bill to get the 
moratorium extended to 2027 are being vigorously opposed by the 
oil industry.
    So just think back. What were some of the consequences? 
Remember the spill off of Louisiana? That was way off of 
Louisiana, but the winds shifted. They started bringing it to 
the east. They brought the oil as far east as Pensacola Beach, 
and those sugary white sands of Pensacola Beach were completely 
covered in oil, and that photograph flashed around the world.
    The winds kept coming east, and they brought it to Destin 
and Sandestin. We kept it out of the pass, unlike Pensacola 
Pass, because the oil got into Pensacola Bay. We kept it out of 
the pass at Destin, getting into the very large Choctawhatchee 
Bay. That was done with booms and buoys. The winds carried it 
far east--there were tar balls on Panama City Beach--and then 
the winds reversed, and they started carrying it back to the 
west.
    But the damage was done. When those photographs flashed 
around the world, they thought there was oil all over the 
beach, and the tourists did not come to the Gulf Coast beaches 
all the way down south to Naples and Marco Island for an entire 
season. That was a consequence of having oil on Pensacola 
Beach.
    You remember back at one point, 36 percent of the entire 
Gulf was closed to fishing. A recent study showed us estimates 
that recreational anglers lost $585 million in fishing 
opportunities as a result. So the bottom line is if there is an 
oil spill, it spells disaster for state and local economies.
    So what are we going to do going forward? We want to 
certainly maintain our vibrant tourism economy. We want to 
maintain our very delicate environment in the bays and 
estuaries, where so many of the critters come in and the marine 
life is spawned, and then goes back out to sea.
    Another issue that we're going to have to face is Florida's 
and the U.S.'s Brand USA. Brand USA is a quasi-government 
private partnership that promotes tourism from foreign 
countries to the United States. It has had a very positive 
effect on Florida's economy. It attracts millions of foreign 
tourists to the United States, many of whom, of course, come to 
our state.
    The President has proposed in his budget doing away with 
Brand USA. Eliminating it, I think, is classic definition of 
penny-wise and pound-foolish, and I know the three of us are 
going to try to convince our colleagues to preserve this 
important Federal program. The fact is that it's de minimis 
compared to the other items in the Federal Government, and yet 
it returns such tremendous dividends to our state.
    OK. Let's get to our witnesses. Dr. Sherry Larkin is a 
Professor of Resource Economics and Associate Dean for Research 
at the University of Florida. She's also Associate Director of 
the Florida Agricultural Experiment Station. Ms. Robin Sollie 
is President and CEO of the Tampa Bay Beaches Chamber of 
Commerce, working out of their St. Pete Beach headquarters, 
representing the business and tourism interests of several Bay 
communities.
    Ms. Maryann Ferenc serves on the Board of Directors for the 
U.S. Travel Association and Brand USA. Dr. Mitchell Roffer is 
the President of Roffer's Ocean Fishing Forecast Service based 
in Melbourne and Miami, and he has provided targeted, science-
based fishery forecasts for 30 years.
    So welcome to all of you. Take about 5 minutes apiece. 
Let's start with you, Dr. Larkin, and we'll work right down the 
panel.

        STATEMENT OF SHERRY L. LARKIN, Ph.D., PROFESSOR,

            FOOD AND RESOURCE ECONOMICS DEPARTMENT,

      ASSOCIATE DEAN FOR RESEARCH AND ASSOCIATE DIRECTOR,

            FLORIDA AGRICULTURAL EXPERIMENT STATION,

          INSTITUTE OF FOOD AND AGRICULTURAL SCIENCES,

                UNIVERSITY OF FLORIDA (UF/IFAS)

    Dr. Larkin. Good afternoon, Senator Nelson and 
distinguished panel members. My name is Sherry Larkin. I'm a 
natural resource economist at the University of Florida.
    My research examines how our common property resources can 
be better managed by considering the biological, ecological, 
and economic dynamics that affect sustainability and generate 
benefits to society. A component of my research involves 
estimating the economic value of so-called nonmarket goods, 
which are environmental services, like clean air and water and 
healthy fish and wildlife populations, in order to include such 
information in decision modeling.
    While most of my research has focused on fisheries, I have 
examined environmental stressors like red tides and oil spills 
in my 20-year career here in Florida. I first came to Florida 
in 1997. I envisioned Miami and the Everglades and hoped to 
visit all of the famous beaches. But what I learned in my first 
few weeks has set the tone for my career and enticed me to 
stay, and that is that Florida's economy, and especially 
tourism, is based on our natural resources, especially from 
things like our spring water that flows to our coasts to the 
diverse flora and fauna that we share our coastal habitats 
with.
    In the most developed and undeveloped communities 
statewide, protecting and enhancing our natural resources and 
conserving them for future generations is in our economic self-
interest, whether they be used directly or indirectly, by full 
or part-time residents, or by visitors from other states and 
nations that may one day be our neighbors. In what follows, I 
outline Florida's strengths, opportunities, and aspirations for 
ensuring a strong and vibrant nature-based tourism economy.
    Strengths. I believe Florida has three basic strengths in 
that regard. First, we're already a strong brand recognition as 
a tropical vacation destination and supporting built 
infrastructure. Second, Florida has a rich and diverse 
environment. Third, visitors seek out nature-based experiences 
while in Florida, either indirectly at our famous theme parks 
that highlight them or directly through visits to state parks. 
Recent corporate investments by Disney to expand into coastal 
resorts and even redesign and rename their downtown to 
highlight our local freshwater springs signals that corporate 
America recognizes the potential for additional nature-based 
tourism.
    Opportunities. The neo-classical economic framework 
identifies six distinct economic values associated with human 
use of the environment that can be measured. I included a 
graphic on page 3 [see page 11 for reference to graphic]--I'm 
not sure if all of you have that--but they are basically of two 
types. There are so-called non-use--or use values, first, I'll 
talk about--because they're generated from people that 
literally use the resource directly, such as from fishing or 
indirectly from activities like birdwatching.
    And then there are the non-use values, where an individual 
values the protection of a resource, not for their own personal 
use, but rather to ensure that it continues to exist. Think of 
polar bears that perhaps nobody will ever even see in person.
    This total economic value framework allows economists to 
make a ``deep dive'' into the investigation of what constitutes 
and contributes to economic value, which also helps identify 
opportunities for investment to increase that value. I have 
used this framework for the Florida legislature's Office of 
Economic and Demographic Research to value, you know, making 
the public whole following the Deepwater Horizon oil spill as 
required by the Oil Pollution Act.
    The analysis generated a conservative estimate of $643 
million for lost direct-use value and $854 million for lost 
existence value. That is $1.5 billion for just two of the six 
types of economic losses, and those are to Florida residents 
alone. These figures actually also exclude job losses and lost 
tax revenues from reduced visitor spending.
    Aspirations. In closing, Florida's economy fundamentally 
depends on our tourism, which, in turn, is dependent on our 
natural resources. But the industry does face numerous threats, 
some natural and others manmade, all of which can be 
prioritized in part with economic analysis of, for example, the 
following four types of projects.
    One, built and natural infrastructure to expand 
recreational opportunities and support rural development. Two, 
technological innovations, such as marine aquaculture, to jump 
start a blue revolution for job growth. Three, improve 
terrestrial and freshwater environmental systems that generate 
spillover and downstream economic benefits for nature-based 
tourism. And, four, prevent, mitigate, or control invasive 
species to protect our old Florida brand, ecotourism, and 
commercial sectors of our economy.
    Thank you for the opportunity to testify. I would be happy 
to answer any questions.
    [The prepared statement of Dr. Larkin follows:]

  Prepared Statement of Sherry L. Larkin, Ph.D., Professor, Food and 
    Resource Economics Department, Associate Dean for Research and 
Associate Director, Florida Agricultural Experiment Station, Institute 
   of Food and Agricultural Sciences, University of Florida (UF/IFAS)
    Good afternoon Chairman Thune, Ranking Member Nelson, and members 
of the Committee. Thank you for giving me the opportunity to provide 
testimony regarding the threats to Florida's tourism industry, 
especially those that are directly and indirectly linked to natural 
resources of our estuaries and wetlands, surrounding gulf and ocean, 
and our coastline.
    My name is Sherry Larkin and I am a natural resource economist at 
the University of Florida. My research examines how our common property 
natural resources can be better managed by considering the biological, 
ecological and economic dynamics that affect the regeneration and 
sustainability of environmental assets (primarily fish stocks) that 
generate economic benefits to society. A component of my research 
involves estimating the economic value of so called ``non-market 
goods''--environmental goods and services, such as clean air and water, 
and healthy fish and wildlife populations, are not traded in markets--
in order to include such information in decision modelling. This type 
of analysis is necessary when considering environmental issues that 
affect human systems, and public programs that have the potential to 
generate non-market benefits (such as recreational experiences) or to 
mitigate, control or prevent negative economic consequences. In 
addition to my academic achievements as a professor, including that I 
am the current President of the North American Association of Fisheries 
Economists, I have served on the Science and Statistical Committee of 
both the South Atlantic and Gulf of Mexico Fishery Management Councils. 
While most of my research has focused on fisheries, I have examined 
environmental stressors like red tides and oil spills in my 20-year 
career in Florida.
    For this hearing, I was asked to discuss challenges to the tourism 
economy in the State of Florida, and provide suggestions for how these 
challenges could be addressed to protect existing tourism 
opportunities. My comments will primarily represent the research with 
which I have been involved, but my opinions will be reflective of my 
collaborators and colleagues within UF/IFAS that are conducting 
research under the auspices of the Florida Agricultural Experiment 
Station and the Florida Sea Grant College Program.
    I came to Florida on a one year post-doc in 1997, never having been 
east of Indianapolis. I envisioned Miami and the everglades, and hoped 
to visit Key West to enjoy those famous pink shrimp, but what I learned 
in my first few weeks has set the tone for my career--Florida's tourism 
is based on our natural resources, from our spring water that flows to 
our coasts, to our diverse flora and fauna that we share our coastal 
habitats with, and in the most developed and undeveloped communities 
from Key West to Pensacola. Protecting and enhancing our natural 
resources and conserving them for future generations is in our economic 
self-interest whether they be used directly or indirectly for full and 
part time residents, and visitors from other states and nations that 
might one day be our neighbors.
    As a natural resource economist, and with respect to our 
environment and natural resources that have and generate economic 
value, we aim to provide information to help make strategic 
investments; yes, all projects provide value, but what about costs, 
lost opportunities and relative values? In the face of limited 
resources, I am here to argue for the use of economic analysis in 
decision-making both from my disciplinary expertise and my own 
research, but also as a representative of all UF/IFAS researchers that 
I serve in my role as an associate dean for research and associate 
director of the Florida Agricultural Experiment Station.
    In what follows, I outline--from an economic perspective--Florida's 
strengths, opportunities, and aspirations for ensuring a strong and 
vibrant tourism economy.
Strengths . . . of Florida's tourism economy
    Florida has a rich and diverse high-quality environment--from 
freshwater springs that attract divers worldwide, to numerous iconic 
mammals and reptiles (alligators, manatees, sea turtles, panthers, Key 
deer, etc.), unique birds (roseate spoonbills), 825 miles of coastline 
with diverse beach characteristics and palm, pine and oak trees that 
highlight our tropical to upland habitats that reinforce our ``old 
Florida'' brand. A brand that has been fostered by past public 
investments and that I sought to model in a theoretical contribution to 
the literature. A brand that arguably supports a robust tourism 
industry.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    While beaches may be the first destination for the majority of 
visitors, data shows that visitors seek to enjoy our natural resources 
and that enjoyment translates into economic value and return to the 
state. (see box). Clearly, our natural resources are the key to our 
tourism, and coastal tourism in particular--where 80 percent of 
Floridian's live and work--has been an economic engine for the state. 
Recent corporate investments by Disney to expand into coastal resorts 
and even redesign and rename their ``downtown'' to highlight our local 
freshwater springs indicate the potential growth of our natural 
resourced-based tourism.
Opportunities . . . of identifying and increasing the economic value 
        associated with nature-based tourism
    From a neo-classical economic perspective, anything that gives an 
individual satisfaction or ``utility'' to the point that they are 
willing to forgo scarce resources to obtain it has an ``economic 
value.'' Whether the scarce resource is time, money, or some other 
object of trade, the value of the trade is a conservative estimate of 
the value of the non-monetized natural resource because the trade would 
only happen if the individual derived at least the same or greater 
level of satisfaction.
    In total, there are six distinct economic values associated with 
human use of the environment that can be measured (Figure 1) and they 
are of two types: so-called ``use values'' because they are generated 
from people literally using the resource today (either directly such as 
from catching and eating fish or indirectly from ecosystem services or 
recreational boating, beach going, or wildlife viewing),\1\ or from the 
value of holding the resource with an option of using it in the future 
(such as set aside areas of biodiversity for future recreation or 
medical products) and ``non-use values'' where an individual values the 
protection of a resource--not for their own personal use--but rather to 
either ensure it exists (think polar bears and koalas that maybe no one 
will ever see), or for the benefit of others either today or in future 
generations (that is, altruistic and bequest values, respectively).
---------------------------------------------------------------------------
    \1\ Further distinction can be made within these categories, and 
different names are used to convey the nature of each value. Such 
categories include those that focus on the ``services'' provided 
including provisioning (direct use value), cultural (indirect use 
value, recreation in particular), regulating and supporting (indirect 
use value, ecosystem services like habitat, water filtration, wetlands, 
and nutrient cycling etc.).
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. Total Economic Value (TEV) of a natural resource to an 
individual and society can be measured as the sum of up to six distinct 
---------------------------------------------------------------------------
values (in yellow).

    This total economic value (TEV) framework allows economists to make 
a ``deep dive'' into the investigation of what constitutes and 
contributes to economic value. And while some of these values are 
relatively straight forward to estimate--such as the value of seafood 
or cost to travel to the coast for recreational boating, others are 
more salient and require advanced methodologies and strict protocols 
for data collection in order to begin the judicial process of damage 
assessment under conditions established following the 1989 Exxon Valdez 
oil spill (Bishop et al., 2017. ``Putting a value on injuries to 
natural assets: The BP oil spill'' Science 356(6335): 253-254).
    The TEV framework has been used to estimate the value of opening up 
new natural areas to recreation, investing in infrastructure that can 
allow for greater use, or protecting existing coastal areas; 
alternatively, it can be used to value losses or potential losses in 
the same. By integrating scientific information on changes in either 
the biophysical or human infrastructure--whatever the cause (rising 
seas, rising temperatures, storm events, or algal blooms)--with the 
economic (be it either costs and benefits, risk assessments, and impact 
analysis), decision makers are poised to make informed decisions with 
the highest return on investments (ROIs).
    While the TEV framework estimates the value to individuals that can 
be extrapolated to society as a whole, economists have also utilized 
impact analyses that estimate the ripple effects of a change in 
economic activity at the county, regional, or state level--that is, by 
estimating a change in the spending in an economy and associated 
secondary effects (indirect and induced from multipliers) of the change 
in spending. This is an important tool as it highlights the linkage 
between the economic value of the environment and natural resources and 
the job creation and community benefits derived. This was highlighted 
in a recent Florida Sea Grant Report entitled ``Living on the edge: The 
balance between economy and environment'' that claimed

        Most of Florida's 20 million residents live in coastal 
        counties, and over 80 million tourists visit the coast each 
        year. This concentration-of people, activities and economies 
        contributes more than 80 percent--almost $562 billion--to the 
        state's economy annually.

    I would argue that the premise is false, that is, there isn't a 
balance; the environment and economy are inextricably linked and what 
benefits one, benefits the other and vice versa.
    I have used the TEV framework on behalf of the Florida 
Legislature's Office of Economic and Demographic Research to value 
making the public ``whole'' following the Deepwater Horizon oil spill--
as required by the Oil Pollution Act. The analysis generated a 
conservative and risk-adjusted estimate of $854 million for lost 
passive use value and $643 million for lost direct use value from 
forgone recreational trips in the aftermath; or nearly $1.5 billion of 
lost TEV associated with just two of the six economic values that 
Floridians could have for a restored Gulf environment in the short run. 
This means the analyses would support investing up to $1.5 billion in 
preventing similar damages to the Gulf of Mexico's natural resources. 
In addition, the study also estimated the losses to the state of 
Florida from forgone trips by domestic visitors (via IMPLAN 
software).\2\ In particular, visitor spending fell $1.3 billion due to 
cancelled trips over a 28-month period. The associated regional 
economic impacts equaled a reduction of $2.03 billion in output 
(industry revenues), and employment loss of over 20,000 job-years, and 
$1.37 billion in decreased value-added. In addition, the corresponding 
loss in sales tax revenue totaled $77.8 million dollars. For 
comparison, the state was awarded $2 billion on behalf of its trustees 
to compensate for economic losses following the spill, primarily due to 
tourism effects.
---------------------------------------------------------------------------
    \2\ Impact Analysis for Planning (IMPLAN) software uses national 
and regional economic data to measure the ``ripple effect'' on a 
regional economy that is caused by a change in spending by non-
residents. The total economic impact from a change in spending by non-
residents of the study region (direct effect) includes the secondary 
effects of economic activity lost from reduced purchases of 
intermediate products through the industry supply chain (indirect 
effects) and activity lost from reduced employee household and 
government spending (induced effects). Economic multipliers are used to 
capture the distinct secondary effects on the regional economy by 
accounting for the ``leakage,'' or the degree to which demand for goods 
and services in the region is met by businesses that import from other 
regions.
---------------------------------------------------------------------------
    In addition, I have participated in studies that have generated 
economic information for resources in Florida (see box for examples). 
Economic analyses provide a rigorous framework upon which to evaluate 
investment in environmental and natural resource assets that in Florida 
are surely to be used and enjoyed by tourists. Such a framework is 
critical when investment dollars are scarce and scientific information 
is costly. And given an increasing demand from population growth, 
choices will be imminent.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    No discussion of environmental and natural resources would be 
complete without mention of climate change and associated concerns over 
sea level rise and extreme weather events. One way to frame the issues 
is to first consider--or not consider at all--whether the cause 
matters. If we, as a society, have strategies that mitigate, control 
and possibly prevent associated environmental and economic damage with 
a high degree of certainty and at costs that are less than the value of 
rebuilding existing infrastructure, what then? Economic analyses can 
compare the future costs with the benefits of proposed strategies to 
assess the ROI.
Aspirations . . . for moving forward
    My personal and professional hopes are that society makes 
investment decisions based on sound science, including sufficient 
knowledge of the biophysical world and interdependent social sciences 
that collectively shape societal outcomes. I also hope that the 
inherent interconnectedness of the natural and physical world become 
better understood by all so that strategic investments, while seemingly 
narrow in their objective, can eventually lead to significant 
socioeconomic benefits. I offer two examples before ending with a list 
of suggestions to help mitigate future threats to Florida's tourism 
driven economy.
    The first example involves the political decision to close a 
fishery over concerns of stock collapse. The town of Cedar Key was 
essentially removed of its lifeblood after a public vote to ban net 
gear for the capture of mullet in the mid-1990s. The public investment 
that ensued to retrain fishermen to farm hard clams was significant. 
Fast forward 20 years and Cedar Key is the leader in the production of 
hard clams, which has supported a relatively high-valued locally caught 
fresh source of seafood with spill over externalities to the supporting 
rural community. Fishing jobs have increased, a working waterfront is 
maintained, tourism is burgeoning, and public and private investments 
are increasing. This public investment 20 years ago has resulted in 
recent substantial investments by the Florida Aquarium and the new UF/
IFAS Nature Coast Biological Station, which houses new UF faculty 
conducting research along the Big Bend Region. The seemingly private 
benefits of reinvesting in fishermen has provided public benefits in 
the form of rural development and expanded tourism opportunities that 
are independent of out-of-state brand name hotels.
    The second example highlights the potential for further development 
of aquaculture in Florida. UF/IFAS has researchers, including nearby at 
Apollo Beach and in Ruskin, that are seeking to (1) farm corals for 
restoration of the Florida Bay and the Keys in order to improve water 
quality, habitats for other species, and support increased snorkeling, 
diving and fishing; (2) rear live bait fish that have high economic 
value and the potential to reduce pressure on the harvest of wild 
forage fish from the ecosystem, a move that would leave forage fish to 
support an increase in valuable reef fish species; and (3) augment 
populations of popular recreational marine species such as snook, red 
drum and scallops. Today, the recreational scallop fisheries along the 
northern Gulf coast of Florida provide substantial economic activity to 
several rural coastal communities.
    In closing, Florida's economy is fundamentally dependent on our 
tourism, which is in turn dependent on our natural resources. But the 
industry faces numerous threats, some natural and others man made; all 
of which can be addressed in part with investment. Florida's brand name 
will continue to grow with continued investments that evaluate the 
benefits and costs of each choice, which may require scientific 
information. Below are types of investments--some obvious, some not so 
obvious--that show the breadth of activities to achieve this objective:

  1.  Investment in built and natural infrastructure. Improve or create 
        new on-site recreational facilities such as parking lots, boat 
        ramps, and boardwalks. Improve off shore and underwater 
        ecosystems that protect the built environment in coastal areas 
        (e.g., oyster reefs), and that serve as habitat for species 
        that can supply additional recreational opportunities (diving, 
        fishing, and/or snorkeling). These investments will directly 
        strengthen local economies by improving access and visitation 
        opportunities, and expand Florida's portfolio while providing 
        rural development.

  2.  Facilitation and support of technological innovations such as 
        aquaculture. Biological research to close the life cycle of 
        high-valued species, legal research to reduce regulatory 
        burden, engineering studies to improve design and economic 
        studies to improve efficiency and evaluate the ROIs can all 
        help to augment wild populations for recreational harvest 
        (e.g., fish species) and increase the supply of fresh fish to 
        tourists to boost the local experience, and further build the 
        Old Florida brand. These investments would serve to initiate a 
        ``blue revolution'' in the U.S. and the new industries would be 
        associated with job growth.

  3.  Continued protection of wildlife. Collaborate with and augment 
        efforts by conservation organizations to ensure habitat areas 
        are sufficient for iconic species like sea turtles, manatees 
        and goliath grouper that have tremendous popularity among 
        tourists. Bird watching is one of the fastest growing hobbies 
        as enjoyment is not limited by physical ability, and birders 
        are willing to travel to see unique species like sandhill 
        cranes, whooping cranes, and bald eagles. Public investment to 
        support private lands that sustain valuable species for the 
        benefit of all are well justified. Such investments could 
        include the additional expense of beach renourishment projects 
        that are suitable for sea turtle nesting (i.e., proper sand, 
        slope and compaction) and conservation easements for 
        agricultural lands that ensure continuous acreage to support 
        larger mammals; this is because investments in terrestrial and 
        freshwater environmental systems generate spillover and 
        downstream economic benefits that support nature-based tourism.

  4.  Invest in efforts to prevent, mitigate or control the spread of 
        invasive species that can introduce pests and diseases that 
        threaten the survival of iconic plants and animals (think large 
        palms, citrus, and endangered panthers and black bear, some of 
        which are currently threatened), and human health (e.g., 
        mosquitos). Florida is ground zero for the unintended and 
        undetected introduction of new species that do not have local 
        predators to keep populations in check. The risk is exacerbated 
        by the ongoing expansion of port capacity and international 
        trade. UF/IFAS research has shown that early investments in 
        detection (biological risk assessments) are substantially more 
        cost effective than controlling the spread of established 
        species (pythons and melaleuca come to mind); consider 
        investments in risk assessments for example to preserve the 
        aesthetics of our tropical environment and sustain the economic 
        benefits derived from ecotourism that are critical to nature-
        based tourism and commercial sectors of our economy.

    Thank you for the opportunity to testify today. I would be happy to 
answer any questions that you might have.
             Relevant Publications/References by S. Larkin 
                     (reverse chronological order)
Book Chapters
    Bi, X., T. Borisova, S. Larkin, and J. Longanecker. 2015. 
``Economic Value of Recreation along the Freshwater Portion of the St. 
John's River,'' Chapter 6, p. 225-261. In St. John's River Economic 
Study (C.T. Hackney, ed.). University of North Florida, Jacksonville.
    Bi, X., T. Borisova, S. Larkin, and J. Longanecker. 2015. 
``Estimation of the Current and Potential Level and Value of Ecotourism 
in the St. John's River Basin,'' Chapter 7, p. 263-268. In St. John's 
River Economic Study (C.T. Hackney, ed.). University of North Florida, 
Jacksonville.
    Larkin, S. 2014. ``Deepwater Horizon Oil Spill,'' in Environmental 
and Natural Resource Economics: An Encyclopedia, p. 105-107. T.C. Haab 
and J.C. Whitehead (eds.). Santa Barbara: ABC-CLIO, LLC.
    Gardner, C., S. Larkin, and J.C. Seijo. 2013. ``Systems to Maximise 
Economic Benefits in Lobster Fisheries,'' chapter 5, p. 113-138, In 
Lobsters: Biology, Management, Aquaculture, and Fisheries (2nd ed.). 
B.F. Phillips (ed). John Wiley & Sons, Ltd.
    Adams, C.M., S. Larkin, K. Morgan, B. Degner, and J. Stevely. 2008. 
``Measuring the Economic Implications of Red Tide Events on the Gulf 
Coast of Florida, USA: An Overview of University of Florida Research 
Efforts,'' pp. 223-232. In Mitigating Impacts of Natural Hazards on 
Fishery Ecosystems. K.D. McLaughlin [ed.] American Fisheries Society, 
Symposium 64.
Peer-reviewed Journal Articles
    Avila, J., S. Baker, K. Grogan, S. Larkin, and L. Sturmer. In 
review. ``Ecosystems Services Generated by Hard Clam Aquaculture and 
Valuation of the Industry in Florida'' Journal of Society and Natural 
Resources.
    Whitehead, J., T. Haab, S. Larkin, J. Loomis, S. Alvarez, and A. 
Ropicki. In review. ``Lost Recreational Value to Northwest Florida from 
the Deepwater Horizon Oil Spill Using Revealed and Stated Preference 
Data.'' Marine Resource Economics.
    Elrich, O., X. Bi, T. Borisova, and S. Larkin. In press. ``A Latent 
Class Analysis of Public Attitudes toward Water Resources with 
Implications for Recreational Demand.'' Ecosystem Services.
    Court, C., R. Clouser, A. Hodges and S. Larkin. In press. 
``Economic impacts of cancelled recreational trips to Northwest Florida 
after the Deepwater Horizon oil spill.'' Regional Science, Policy and 
Practice.
    Camp, E., R. Ahrens, K. Lorenzen, and S. Larkin. 2017. ``Trade-offs 
between Socioeconomic and Conservation Management Objectives in Stock 
Enhancement of Marine Recreational Fisheries''. Fisheries Research 
186(2): 446-459.
    Borisova, T., X. Bi, S. Larkin, and J, Loganecker. 2016. 
``Assessing Nature-Based Recreation to Support Economic Development and 
Environmental Sustainability Extension Programs.'' Journal of Extension 
54(4): 5RIB1.
    Anderson, C., J.L. Anderson, J. Chu, J. Meredith, F. Asche, G. 
Sylvia, M.D. Smith, D. Anggraeni, R. Arther, A. Guttormsen, J.K. 
McCluney, T. Ward, W. Akpalu, H. Eggert, J. Flores, M.A. Freeman, D. 
Holland, G. Knapp, M. Kobayaski, S. Larkin, K. MacLauchlin, K.E. 
Schnier, M. Soboil, S. Tveteras, H. Uchida, and D. Valderrama. 2015. 
``The Fishery Performance Indicators: A Management Tool for Triple 
Bottom Line Outcomes.'' PLoS ONE 10(5): e0122809.
    Alvarez, S., S. L. Larkin, T. Haab, and J.C. Whitehead. 2014. ``A 
Revealed Preference Approach to Valuing Non-market Recreational Fishing 
Losses from the Deepwater Horizon Oil Spill.'' Journal of Environmental 
Management 145(1): 199-209.
    Larkin, S.L., R.G. Huffaker, and R.L. Clouser. 2013. ``Negative 
Externalities and Oil Spills: A Case for Reduced Brand Value to the 
State of Florida.'' Journal of Agriculture and Applied Economics 45(3): 
389-399.
    Adams, D., A. Bwenge, D. Lee, S. Larkin, and J. Alavalapati. 2011. 
``Public Preferences for Controlling Upland Invasive Plants in State 
Parks: Application of a Choice Model.'' Forest Policy and Economics 
13(6): 465-472.
    Morgan, K., S. Larkin, and C. Adams. 2011. ``Empirical Analysis of 
Media versus Environmental Impacts on Park Attendance.'' Tourism 
Management 32: 852-859.
    Morgan, K., S. Larkin, and C. Adams. 2010. ``Red Tides and 
Participation in Marine-Based Activities: Estimating the Response of 
Southwest Florida Residents.'' Harmful Algae 9(3): 333-341.
    Larkin, S.L. and C.M. Adams. 2008. ``Public Awareness and Knowledge 
of Red Tide Blooms.'' Journal of Extension 46(2): 2FEA8.
    Larkin, S., and C. Adams. 2007. ``Harmful Algal Blooms and Coastal 
Business: Economic Consequences in Florida.'' Society and Natural 
Resources 20(9): 849-859.
Other Reviewed Publications
    Larkin, S., and C. Adams. 2013. ``Summary of Literature that 
Addresses the Economic Consequences of Harmful Algal Blooms.'' EDIS 
(Electronic Data Information Source) document FE936, University of 
Florida, Gainesville, FL.
    Huffaker, R., R. Clouser, and S. Larkin. 2012 ``Contract for 
Analytical Services Related to the Deepwater Horizon Disaster: 
Estimation of lost indirect and passive use economic values to 
Floridians'' Food and Resource Economics Department, UF/IFAS, 
Gainesville, FL.
    Larkin, S., J. Georges, A. Hodges, M. Allen, and D. Jones. 2012. 
``The Economic Impact of the 2011 Florida BASS Federation Tournament to 
Osceola County and the Economic Value of Participants.'' EDIS document 
FE916, University of Florida, Gainesville, FL.
    Larkin, S., S. Alvarez, G. Sylvia, and M. Harte. 2011. ``Practical 
Considerations in Using Bioeconomic Modelling for Rebuilding 
Fisheries'', OECD Food, Agriculture and Fisheries Working Papers, No. 
38, OECD Publishing.
    Adams, D.C., A.N. Bwenge, D.J. Lee, S.L. Larkin, and J.R.R. 
Alavalapati. 2011. ``Economic Value of Upland Invasive Plant Management 
in Florida State Parks.'' EDIS document FR352/FOR290. University of 
Florida, Gainesville, FL.
    Larkin, S., K. Lucas, C. Adams, and J. Stevely. 2011. ``Strategies 
to Address Red Tide Events in Florida: Results of a 2010 Survey of 
Coastal Residents.'' EDIS document FE891. University of Florida, 
Gainesville, FL.
    Swett, R.A., C. Adams, S. Larkin, A.W. Hodges, and T.J. Stevens. 
2011. ``Economic Impacts of Artificial Reefs for Six Southwest Florida 
Counties.'' TP-178. Florida Sea Grant College Program, UF/IFAS 
Extension, Gainesville, FL.
    Morgan, K.L., T. Stevens, R. Degner, S.L. Larkin, and C.M. Adams. 
2010. ``Economic Impacts of Alternative Regulatory Scenarios on the 
Florida Fresh Half-shell Oyster Industry.'' EDIS document FE835. 
University of Florida, Gainesville, FL
    Morgan, K.L., S.L. Larkin, and C.M. Adams. 2008. ``Public Costs of 
Florida Red Tides, 2007.'' EDIS document FE711. University of Florida, 
Gainesville, FL

    Senator Nelson. Thanks, Dr. Larkin.
    Ms. Sollie?

 STATEMENT OF ROBIN A. SOLLIE, IOM, FCCP--PRESIDENT/CEO, TAMPA 
                BAY BEACHES CHAMBER OF COMMERCE

    Ms. Sollie. Thank you, and----
    Senator Nelson. By the way, while you all are working on 
that, let me call your attention to the poster over here. 
[Poster is on display.] That, of course, is the peninsula of 
Florida. All of that yellow in the Gulf is the area that is off 
limits in law to drilling, and, as you see, in a position from 
Clearwater Beach to the edge of the line on the west, which is 
called the Military Mission Line. That's 235 miles away. When 
you get down as far as Naples, it's something like 260 miles. 
Up in the panhandle off of the beach there, it's 125 miles off 
of Panama City Beach, and that is one of the national assets.
    We are now--look down there where the Keys are. So when the 
U.S. Navy Atlantic Fleet had to shut down its training in 
Puerto Rico in the island of Vieques, all of that training 
comes here now. So they'll send the squadrons of F-18s in the 
Navy down to Key West Naval Air Station, which is on Boca Chica 
Key, and when they lift off, you can see from that map, in 2 
minutes, they are in restricted airspace. So they don't have to 
spend a lot of fuel and time to get to their training area.
    Then you can see from the bottom all the way north to the 
panhandle where the big Eglin Air Force Base is. That's a 
distance of 350 miles. They can test weapons. For example, they 
could shoot a cruise missile in its testing operation from the 
south, and it'll go 350 miles in testing it, and then if they 
wanted to land it in the sea, they could. If they wanted, they 
could land it on land, and its impact could be on the huge 
Eglin Air Force Base.
    So, visually, that's a good pictorial for you to see how 
big that training range is.
    OK. Ms. Sollie?
    Ms. Sollie. Thank you very much. Thank you for having me 
this afternoon. I'm extremely honored to be here and honored to 
be representing the coastal communities of Pinellas County and 
the business community as well.
    My first slide in my presentation--thank you, panelists. 
You've taken care of everything up there in your opening 
remarks.
    I would like to emphasize, as we discuss tourism and we say 
tourism industry, that everyone here in the audience and our 
elected officials remember that it's truly economic impact. It 
is an economic driver. In many times and instances, it is left 
out of economic development because we think about 
diversification of jobs in the markets that we have within the 
county, and tourism needs to always be in the conversation when 
we talk about economic development and the economy.
    The numbers are there. Twenty-three percent of the sales 
tax generated is generated by our tourists that come to the 
destination. We have businesses that are built in these 
communities because they thrive and are alive because of the 
tourists that come here. When I have my closing, I can 
definitely depict what had happened in 2010, especially in the 
beaches and the coastal communities in Pinellas County as a 
result of 2010.
    So you asked me to present to you what we see as threats to 
our tourism economy. I did that in conjunction with polling a 
lot of our businesses in the coastal communities, and we came 
up with some high-impact threats, mid-level impact threats, and 
low-level impact threats.
    Obviously, oil drilling off of Florida's coast--we can talk 
about it over and over, and it's an unfortunate situation. What 
happened in 2010--we're still, you know, trying to understand 
and ascertain--thank you, Dr. Sanberg--to understand the impact 
on the health of the Gulf of Mexico, let alone what happened 
when tourists stopped coming here as a result of that tragic 
explosion that was nowhere near Florida. So we say and we ask, 
to mitigate this threat, to continue the moratorium on the 
exploration and oil drilling off Florida's coast.
    Our second high-level impact threat is storm surge and 
hurricanes. Obviously, we can't control when a storm comes to 
our coastline or when a hurricane does. But what we can do is 
we can control the health of the natural resource of our 
shoreline. When a storm comes or a hurricane comes, there's 
severe amounts of beach erosion. Debby came to our coastline 
and tore up our beaches, from Redington Shores, Sand Key, all 
the way down to Pass-A-Grille. A few years later, in 2016, 
Hurricane Hermine came by--again, eroded our shoreline. One was 
a tropical storm. One was a hurricane. They both have the same 
impact of beach erosion to the beaches.
    If we don't have a healthy beach, our tourists and our 
residents don't have a beach to go to. Our businesses around 
those beaches end up suffering. So we do ask, to mitigate that 
threat, that we continue--and thank you, Senator Nelson--
continue funding nourishment, increase funding nourishment 
along with the contributions that we do on a state and local 
level when it comes to beach nourishment.
    Then third, we classified this as mid-level only because if 
funds are diverted from Brand USA and, unfortunately, here in 
the state of Florida, Visit Florida, it has a slow, residual, 
painful effect on tourism. It's not a high immediate effect, 
like a storm or an oil spill. But to divert funds from a 
marketing agency that we need vitally to make sure that we are 
a competitive industry globally, especially when we have 
emerging markets, like Dubai and Cuba--we have cruise ships 
that are going to Cuba, taking thousands and thousands of 
passengers there. So we want to encourage, to mitigate this 
threat, that you fight for us on our behalf up there to 
continue to fund Brand USA and continue to use those funds for 
the intended purpose, to market us globally so we can stay 
competitive.
    Transportation--big one. We're number four in the nation 
when it comes to transportation, due to our infrastructure and 
our roads. That sounds great, but when we lift up the hood and 
we look at our destinations, Pinellas County, Orlando, 
connectivity, transportation is more than a road. It's 
easements to create the future of transit. We need transit. We 
need mobility.
    We have travelers who come to this destination. The 
demographic is changing. Foreign travelers--their expectations 
are much higher when it comes to public transportation. 
Millennials--we have to think for the future. We need to have 
the ability to make sure that our tourists can be mobilized in 
a variety of facets, and that even includes the Federal funding 
in any capacity for our airports and the fees involved there so 
we can continue to be that competitive market.
    So the threat there, to mitigate that, is please continue 
to explore funding and, whenever possible, expanded funding, 
and I'd say be advantageous. Let's be cutting edge in some 
cases. We're way down at the bottom here in Pinellas County 
when it comes to transit.
    Another threat--Zika. Zika, and you could say, slash, red 
tide or any other type of maybe algae bloom or anything that 
may happen in the ocean or within our environment. We say it's 
low, because the impacts, again, aren't an immediate 
ramification of loss of revenue and jobs and tourists 
automatically fleeing from us. However, they do impact us.
    It's very hard to track. It's very hard to understand. But 
we do ask, to mitigate those threats, that you continue to fund 
research and development to eradicate whatever that is, or to 
find cures, or be able to at least minimize the ramifications 
of any of these blooms, Zika, whatever would impact national 
media hype, as I like to call it, to make it look like we're 
not a place that you should visit as a result of this.
    And then, finally, we talk about sea level rise. That is a 
low and is a long-term effect. I know there was an article in 
the Times today about sea level rise, and it's escalating. But 
we don't see immediate results today, right, of sea level rise. 
It's one of those things--we say, ``Oh, our grandkids or our 
grandkids' grandkids are going to see that.'' We need to 
address it now.
    We are working in environments in Pinellas County with many 
municipalities that have specific land use plans, and at a 
county level, we need to address the land use plans for 
redevelopment or new development that has sea level rise in the 
vision so that we can plan for the future, so that our coastal 
communities are protected long-term, and those tourists will 
continue to enjoy our destination, and our residents can 
continue to thrive in our destination as well.
    You know, I talk about the recipe. What is the recipe? 
Because we never know how this is going to pan out. We can't 
always plan for the impact of what any of these may present to 
us. If you think about 2010, we had three things that occurred. 
We had an oil spill, we had a cold snap--we can't control 
that--and we had a recession. Maybe we could have controlled 
that in some capacities in hindsight, but, pretty much, we 
couldn't.
    We lost thousands of jobs. We had businesses closing. Bed 
tax collections were down. We had to cut marketing funding 
during that time. Our sales tax collections go down as a result 
of that as well.
    So we, as leaders, need to continue to plan for the future, 
plan as if, because when it comes, we don't know in what 
variety it will come. It will, unfortunately, and we will need 
to be prepared, fully funded, and fully healthy and nourished, 
and we appreciate it.
    I accept any questions, and thank you for the opportunity 
to present.
    [The prepared statement of Ms. Sollie follows:]

   Prepared Statement of Robin A. Sollie, IOM, FCCP--President/CEO, 
                 Tampa Bay Beaches Chamber of Commerce
    Thank you for giving me the opportunity to testify today regarding 
``Threats to Florida's Tourism Economy''. On behalf of the businesses 
in our communities we appreciate all you do each day for our country, 
the state of Florida and our local communities.
Introduction
    As the CEO of the Tampa Bay Beaches Chamber of Commerce (TBBCoC), I 
have the privilege to represent over 730 businesses with the majority 
directly tourism related (accommodations, restaurants, and 
attractions). The TBBCoC geographical reach is the entire coast line of 
Pinellas County, which are 12 municipalities and 1 un-incorporated 
community. The culmination of these communities is an estimated 8,872 
businesses and over 156,000 residents (*Stats from Pinellas County 
Economic Development http://www.pced.org/?page=DemoBusiness).
    Important facts regarding the Tourism industry and its economic 
impact:

  <bullet> 112 million Visitors to the State of Florida in 2016

  <bullet> Over 1.4 million Tourism related Jobs in the State of 
        Florida in 2016

  <bullet> Approximately $110 billion Economic Impact to the State of 
        Florida in 2016

  <bullet> 23 percent of Sales Tax in Florida is generated by visitors

  <bullet> Pinellas County alone has over 100,000 jobs, nearly 6 
        million visitors in 2016, $10 billion economic impact in 2016

  <bullet> Diversification in Tourism: sports, film, leisure, and 
        meetings all make up the industry

(*Stats from www.visitflorida.org & www.pinellascvb.org)

    The numbers are very powerful for the entire state and Pinellas 
continues to lead as a destination. As an industry we continue to keep 
our pulse on what elements could damage, interfere or even disrupt this 
vital economic driver. Managing threats is a strategic process with a 
precise recipe (planning & funding). Mitigating the long term effects 
could be managed if proper planning occurs. The elements the industry 
has found to be threats are:

  <bullet> Oil Drilling off Florida's Coast (High)

  <bullet> Storm Surge/Hurricanes (High)

  <bullet> Continued Funding of Brand USA & Visit Florida (High)

  <bullet> Transportation (Mid/Long Term)

  <bullet> Zika (Low)

  <bullet> Sea Level Rise (Low/Long Term)

    The degree at which any of these threats effect Florida's economy 
is a moving target which in some cases could be timing, media, and if 
there are multiple threats simultaneously. It's obvious some threats 
cannot be controlled, but how we react, fund or plan can be within our 
control.
Oil Drilling (High Level)
    One of the highest threats we have to Florida's tourism economy is 
the idea that lifting the ban on oil drilling off the coast of Florida 
is a viable and lucrative option. There is no amount of money/proceeds 
from oil exploration and drilling that can outweigh the risk that is 
has on the entire coast of Florida. In 2010, this was experienced 
firsthand through the Deepwater Horizon explosion.
    As a result of this explosion, only small amounts of oil came to 
Florida's coast in the Panhandle. Not one drop washed to Pinellas 
County's coast; yet the magnitudes of losses are still being 
calculated. As of this date, businesses and municipalities are still 
working on their claims process to compensate for lost revenues.
    The environmental consequences have been studied by a variety of 
agencies one of which is here in Pinellas county; USF's College of 
Marine Science, the lead institution for the Center for Integrated 
Modeling and Analysis (C-IMAGE), an international research consortium 
which was created to study the effects of the 2010 Deepwater Horizon 
oil spill, their research is outlined here: http://news.usf.edu/
article/templates/?a=7309&z=220 and mentions as one of 4 finding that 
prolonged oil toxicity in fish continues. Many of these agencies 
continue to monitor the ramification of this spill on the marine life 
and Gulf of Mexico's overall health and indicate that it may be years 
before we truly fully understand the depth of this impact.
    During this tragedy and many months afterwards, the Tourism 
industry had to fight the perception that there was oil on our beaches, 
and that our beaches were closed, while re-structuring tourism 
marketing expenditures to crisis messaging.
    One of the largest resorts on the West Coast of Florida, Tradewinds 
Island Resorts had the following impact on their business (during the 
2010 spill):

  <bullet> Call volume from potential visitors went down by as much as 
        25 percent

  <bullet> Since the oil spill (April 21st through June 2010), two 
        resorts were down by over approximately $1.7 million dollars in 
        revenue. If you assume the hotels that represent the rest of 
        the 35,000 rooms experienced similar revenue losses per room, 
        that is over $70 million dollars in revenues lost in just 
        Pinellas County

  <bullet> Keep in mind these losses don't consider restaurants, 
        suppliers, attractions or other secondary businesses which rely 
        on visitors staying in hotels

(*Taken from Keith Overton written testimony July 12 to the National 
Commission on the BP Deepwater Horizon Oil Spill and Offshore Drilling)

    It is simple; the Deepwater Horizon explosion was off the Louisiana 
Coast and still had major threats and consequences to the entire 
Florida Tourism Industry.
    ACTION TO MITIGATE THIS THREAT: Continue the extensions of the 
moratorium on drilling off Florida's coast.
Storm/Hurricane Surge and Beach Erosion (High Level)
    The threat of storm/hurricane surge results in beach erosion; this 
holds true for the entire coast of Florida. In Pinellas County we are 
very proactive in what measure we need to take regarding beach 
nourishment. Beach nourishment is vital to the health of the beaches 
for our visitors and residents to enjoy as well as our wildlife (birds 
and turtles).
    The #1 reason travelers come to the state of Florida is to visit 
the coastal communities and enjoy the award winning beaches.

        A stat sourced from visitflorida.org/resources/research ``The 
        most popular activities for domestic visitors in 2015 were 
        beach or waterfront activities (41 percent)''

    In June 2012, Tropical Storm Debby and in 2016, Hurricane Hermine 
came for a visit. Both of these visitors left their baggage behind. 
That baggage was the damage to the beach--large amounts of erosion 
along Pinellas County.
    Andy Squires, Section Manager for Coastal Resources in Pinellas 
County provided specific data regarding Tropical Storm Debby and 
Hurricane Hermine.
Hurricane Hermine Impact to Pinellas Beaches
(Reference PDF, page 28, Table 1 for summary of sand losses)
      Table 1. Volume Changes Measured along the entire Sand Key, 
                     Treasure Island, and Long Key
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  <bullet> Impacted Pinellas beaches for 2 days between Sept 1-3, 2016

  <bullet> Sand Key sand loss from erosion totaled about 481,200 cubic 
        yards

  <bullet> For reference, a typical volume of sand placed each 6 year 
        nourishment cycle is typically about 1.3 mm cubic yards. The 2 
        day storm eroded over 1/3 the volume of sand that is typically 
        eroded over a 6 year duration

  <bullet> Loss of dry beach width ranged from 5 feet along Indian 
        Rocks Beach to 35 feet along Indian Shores

  <bullet> Treasure Island sand loss from erosion totaled 69,000 cubic 
        yards and loss of dry beach width ranged from 11 feet at Sunset 
        Beach (part of Treasure Island) to 24 feet at middle of 
        Treasure Island

  <bullet> For Long Key (St. Pete Beach) sand loss (note Table 1 has a 
        typo) from erosion totaled about 80,200 cubic yards; Loss of 
        dry beach width ranged from 6 feet to 23 feet
Tropical Storm Debby Impacts to Pinellas Beaches
(Reference PDF, page 20, Table 1 for summary of sand losses)
 Table 1. Volume Changes Measured along the Long Key, Treasure Island, 
                              and Long Key
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  <bullet> Impacted Pinellas beaches for 3 days from June 24-26, 2012

  <bullet> Sand Key sand loss totaled about 424,000 cubic yards and dry 
        beach width loss ranged from 10 feet to 34 feet

  <bullet> Treasure Island total sand loss was 93,500 cubic yards and 
        dry beach width loss ranged from 10 to 21 feet

  <bullet> Long Key (St. Pete Beach) total sand loss was 113,400 cubic 
        yards and dry beach loss ranged from 11 to 26 feet

    In summary the overall impacts to erosion from each storm were 
similar. This demonstrates that a tropical storm can have extreme 
impacts and risk to our beach environments.
    ACTION TO MITIGATE THIS THREAT: Continue and increase funding for 
beach nourishment projects throughout the state of Florida; along with 
funds at the local level.
Transportation (Mid-Level)
    Florida is #4* in the Nation when it comes to transportation and we 
must continue to stay competitive. However, many of our popular 
destinations fall well below average as it relates to transportation 
options (transit/mobility). With the increase in traffic from foreign 
travelers and a rise of the millennial traveler, both demographics 
desire and expect access to better mobility options.
    Transportation options are vital to stay competitive.
    (Source: http://www.flchamber.com/did-you-know-florida-road-
conditions-rank-best-in-the-country/)
    ACTION TO MITIGATE THIS THREAT: Encourage funding for progressive 
transportation projects to ensure we can stay competitive in the ever 
changing travel market.
Funding Brand USA & Visit Florida Emerging Competitive Markets (Mid-
        Level)
    With emerging competitive markets (Cuba and Dubai for example) 
vying for our tourists it is imperative that agencies like Brand USA 
(and Visit Florida) are adequately funded and funded for extensive 
periods of time. This will ensure the marketing is earmarked to 
continue to attract global travelers to our award winning destinations.
    ACTION TO MITIGATE THIS THREAT: Continue funding this agency to 
remain competitive to emerging markets like Cuba and Dubai.
Sea Level Rise (Low level)
    We do not see any immediate consequences in the business 
communities; however, if our state and local agencies do not start to 
draft land use plans accordingly for the long term effects of this, we 
will experience impacts. Sea level rise will continue to become a 
pressing issue in the years to come. It is vital to plan for the future 
and set the legacy we leave behind.
    Pinellas County executed a study titled: ``Awareness and 
Implications of Sea Level Rise''. It is clear that if coastal 
communities begin to plan for sea level rise, there are options to 
protect the majority of the acreage that will eventually be impacted.
    (See Table 29, from Awareness and Implications of Sea Level Rise--
Document is also attached).
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    ACTION TO MITIGATE THREAT: Start the planning now in conjunction 
with coastal communities; collaborate to have a unified approach.
Zika Virus (low level)
    Though a low level threat at this time, depending on press, 
containment, number of cases it is still a threat to certain parts of 
the tourism market. Some resorts reported minor cancellations when they 
could track, but many times it is difficult to track.
    ACTION TO MITIGATE THREAT: Fund research and development of 
eradicating this disease or a cure to how harmful it is.
Conclusion
    We recognize many of the threats that Florida's Tourism economy 
faces are uncontrollable circumstances. It is the deliberate pre 
planning and funding we invest now that will mitigate and help soften 
the immediate and long term effects on Florida's overall tourism 
economy.
    Additionally, we do not know the exact ingredient for successful 
mitigation. However, we do know that in 2010 we had a recipe for a 
major hit on this industry which was an oil spill, a severe cold snap 
and the recession. The three combined resulted in a considerable dip in 
bed tax collections, sales tax, 1000s of job losses and business 
closures. We need to be pro-active and innovative as we protect this 
industry.
    As a voice for over 730 business members and 14 communities we urge 
this committee to acknowledge all aspects of tourism and consider your 
ability to invest in the future of this indispensable economy.

    Senator Nelson. Thanks, Ms. Sollie.
    Ms. Ferenc?

          STATEMENT OF MARYANN FERENC, CHIEF EXECUTIVE

           OFFICER, MISE EN PLACE, INC.; AND MEMBER,

          BOARD OF DIRECTORS, U.S. TRAVEL ASSOCIATION

    Ms. Ferenc. Senator Nelson and members of the Florida 
congressional delegation, I am honored to testify before you 
today as CEO and Proprietor of Mise en Place, the restaurant, 
and Mise en Place Hospitality Group, the business, which was 
born recently of that foundation. I am also here as a Board 
Member of the U.S. Travel Association, representing all sectors 
of the national travel and tourism industry. On behalf of 876 
Floridians and 15.3 million Americans whose livelihoods depend 
on a vibrant travel sector, thank you for holding this field 
hearing. It couldn't be more important to us.
    Tourism is Florida's largest industry and an integral 
component of the new economy. Tourism provides employment to 
individuals from all walks of life and all levels of education. 
Beyond that, tourism provides community, a sense of place, and 
creates destinations that other industry sectors, such as 
technology, desire to call home. Tourism has recovered faster 
than any other industry from the economic recession. My 
testimony will briefly address the progress we've made on each 
of the five policy priorities and how the Congress can help.
    Brand USA. I remember attending World Travel Market in 
London for the first time and being shocked by the 
underwhelming presence of the United States at the show. Then 
the public-private partnership Brand USA was formed with the 
bipartisan support of this committee and Congress as a whole. 
Brand USA has an important mission to attract millions of new 
international visitors by marketing the entirety of the United 
States and communicating ever-changing entry and visa policies, 
all at no expense to American taxpayers.
    As a member of the Board of Directors, I can report that 
Brand USA's activities are supported by private sector 
contributions matched by a $10 fee on visitors from the Visa 
Waiver Program nations. According to Oxford Economics, Brand 
USA has generated nearly $3.9 billion in Federal, state, and 
local taxes. This has supported 50,900 incremental jobs 
annually and overall yielded an astonishing 27-to-1 return on 
investment.
    Nonetheless, the President proposed defunding Brand USA in 
2018 by redirecting its resources to the Department of Homeland 
Security. We have been gratified by the bipartisan 
congressional response, including from Senator Nelson and 
Senator Thune of this committee. Last month, the House 
Appropriations Committee rejected the White House 
recommendation, and we seek your support as the legislative 
process continues.
    Survey of International Air Travelers, or SIAT. SIAT, 
conducted on a monthly basis continuously since 1983, provides 
information on passenger trip planning, travel patterns, 
demographics, and spending. This travel data from inbound 
foreign visitors is critical to the promotion strategies of 
destinations in Florida and across the nation.
    The administration's 2018 budget proposed disrupting SIAT's 
funding, but the Senate Appropriations Committee last month 
included report language explicitly rejecting the 
administration's proposal and even encouraged an increase in 
the sample. The pending House version of the Commerce funding 
bill is silent on SIAT, so we still have work to do, and we 
would appreciate your support.
    The Passenger Facility Charge, or PFC. PFC is an 
indispensable tool for local communities to make their own 
decisions about how to finance airport modernization. Adjusting 
the PFC ceiling would allow each airport authority to tailor 
its own PFC rate in order to maximize efficiency, reduce 
project costs, and ensure fiscal responsibility.
    At Tampa International Airport, the PFC was used to expand 
Airside F, enabling new service from four international 
airlines. One daily nonstop flight from Europe creates $156 
million annual impact for this region and creates 1,200 jobs. 
The Mise en Place companies are a good example of those jobs. 
We joined forces with other companies to create TPA 
Hospitalities and will soon own and operate eight food service 
establishments at the Tampa International Airport.
    Last month, the Senate Appropriations Committee approved an 
increase in the PFC cap from $4.50 to $8.50 for originating 
passengers. This would be the first increase in 17 years and 
protects rural passengers from having to pay a higher PFC twice 
on connecting flights. As we pursue this priority further, we 
would be very grateful for your help.
    Open Skies. Open Skies agreements have yielded hundreds of 
thousands of American travel and manufacturing jobs, billions 
of dollars in U.S. economic growth, lower airfares for 
travelers, and more flights to airports beyond the major 
gateways. Regrettably, the large legacy airlines have sought to 
disrupt Open Skies agreements with Gulf carriers. U.S. Travel 
is part of a diverse coalition of airlines, travel businesses, 
destination, and cargo companies opposed to this attack on our 
Open Skies treaties. We welcome your assistance as we continue 
to press this issue with the administration and in the 
Congress.
    Balancing security and travel facilitation. In recent 
months, the administration has proposed or implemented a 
battery of new policies intended to protect national security, 
and the travel industry certainly appreciates the need to adapt 
to evolving terror threats. But there is more to the equation. 
In the echo chamber of the foreign press, the stricter views 
and entry policies announced in recent months could serve to 
discourage potential visitors. For instance, we were alarmed 
when the Trump administration recently reversed the State 
Department's goal to meet a three-week Visa interview goal for 
Visa applicants. The U.S. Travel Association, joined by 20 
national travel and business leaders, has asked President Trump 
to reconsider.
    We detailed the economic fallout from visa processing 
delays and asked the White House to reiterate our nation's 
commitment to an efficient, world class visa process. We urge 
your continued diligence as such security policies are brought 
forward.
    We are open for business. It's our role to create the jobs. 
But there are government policies that can help rather than 
hurt. As outlined above, we need to continue to support the 
SIAT, adjust the PFC cap, support Brand USA, and defend Open 
Skies. Taken together, these policies can go a long way toward 
conveying a clear global message to international travelers 
that America is open for business and open to the millions of 
travelers that wish us well.
    Thank you again for this opportunity to participate in 
today's hearing, and thank you so much for your support to date 
on travel and tourism. It is appreciated by all of us.
    Thank you.
    [The prepared statement of Ms. Ferenc follows:]

Prepared Statement of Maryann Ferenc, Chief Executive Officer, Mise en 
  Place, Inc.; and Member, Board of Directors, U.S. Travel Association
    Senator Nelson and members of the Florida congressional delegation:

    I am honored to testify before you today as the CEO and owner of 
Mise en Place, a premier Tampa restaurant and event company since 1986, 
and the hospitality business which it created--the Mise en Place 
Hospitality Group. I am also here as a board member of the U.S. Travel 
Association, the trade association representing all sectors of the 
national travel and tourism industry. On behalf of the 876,000 
Floridians and 15.3 million Americans whose livelihoods depend on a 
vibrant travel sector, thank you for holding this field hearing. It 
couldn't be more important to us.
    The mission of U.S. Travel is to increase travel to and within the 
United States--which together yields $2.3 trillion in economic output 
annually, supporting one in nine American jobs. Last year, America 
attracted 75.6 million international visitors, making travel the 
Nation's top service export.
    Tourism is Florida's largest and, I would submit, most impactful, 
industry and an integral component of the new economy. Tourism provides 
employment to individuals from all walks of life and levels of 
education as well as a unique opportunity for on-the-job training that 
results in substantial possibilities for advancement. Beyond that, 
tourism provides community, a sense of place and destinations that 
other industry sectors, such as technology, desire to call home. In 
2016, we welcomed 112.8 million visitors, who spent $108.8 billion and 
supported 1.4 million Florida great jobs and highlighted countless 
great places to work and live as well as to visit.
    We are a resilient, self-reliant industry--and have recovered 
faster than any other industry from the economic recession. We thrive 
when we serve the public well by providing safe, efficient, productive 
and enjoyable travel experiences.
    In this context, we today respectfully urge your support for:

  <bullet> full funding of Brand USA;

  <bullet> retaining the Survey of International Air Travelers;

  <bullet> lifting the cap on the Passenger Facility Charge user fee;

  <bullet> protecting U.S. Open Skies agreements; and

  <bullet> balancing needed visa and travel security protocols with a 
        clear welcome message for international visitors to the United 
        States.

    My testimony will briefly address the progress we've made on each 
of these priorities and steps the Congress can take to enhance travel's 
contributions to our economy.
Brand USA
    By attracting international visitors, Brand USA enhances economic 
growth, spurs job creation and advances public diplomacy--all at no 
expense to American taxpayers. As a member of its board of directors, I 
can report that Brand USA's activities are supported by private sector 
contributions, matched by a $10 fee on visitors from Visa Waiver 
Program nations.
    Brand USA was created by statute in 2010 to help address the post-
9/11 decade of declining U.S. share in the booming global travel 
market, costing the U.S. economy nearly a half-million travel-related 
jobs. Prior to 2010, the United States was one of the few developed 
countries in the world without a national destination marketing 
organization. I remember attending World Travel Market in London for 
the first time and being shocked by the underwhelming presence of the 
United States at the show. It was a graphic manifestation of the impact 
of travel which the U.S. was ignoring. The Travel Promotion Act, 
enacted and reauthorized in 2014, and supported by large congressional 
majorities, sought to restore our leading position in the highly 
competitive worldwide travel marketplace.
    Overseas business and leisure travelers are critical to local 
economies across our Nation. To help attract these visitors, Brand USA 
has forged working relationships with hundreds of communities--large 
and small, urban and rural--and leveraged their varied promotional 
efforts into a coherent, cost-effective and productive national 
marketing campaign.
    According to Oxford Economics, over the last four years, Brand USA 
has attracted 4.3 million incremental visitors; $13.6 billion in 
related spending; and $29.5 billion in total economic impact, including 
nearly $3.9 billion in federal, state and local taxes. This has 
supported 50,900 incremental jobs annually and overall yielded an 
astonishing 27-to-1 return on investment.
    In addition to marketing the U.S. as a destination, Brand USA is 
charged with communicating our evolving visa and entry policies, by 
addressing confusion about our security protocols that can discourage 
potential visitors from choosing U.S. destinations. Brand USA helps 
ensure that such visitors get accurate explanations of our changing 
rules--and ultimately return home to spread the word about America's 
attractions and hospitality, generating goodwill for years to come.
    In short, Brand USA is an extraordinarily successful public-private 
partnership--and not only for gateway cities. During my terms on the 
United States Travel and Tourism Advisory Board, under the auspices of 
the Department of Commerce, I witnessed the power and impact of 
thoughtfully-created, high-quality public-private partnerships as we 
deployed a whole-of-government approach. I was inspired by the 
organization and its efforts to represent all of our industry. I found 
it to be both inspiring and personally rewarding to support the close 
and successful partnership of extraordinarily talented civil servants 
and truly remarkable travel and tourism professionals. Brand USA is 
another fine example of this and its work has been particularly 
beneficial for small destinations with limited marketing resources that 
can leverage Brand USA's coordinated outreach overseas to market their 
brands in the global marketplace.
    Nonetheless, the President's Fiscal Year 2018 budget proposes to 
de-fund Brand USA by redirecting its resources to the Department of 
Homeland Security. We have been gratified by the bipartisan 
congressional support for Brand USA, including from Senator Nelson and 
Senator Thune of this Committee. Furthermore, last month--the House 
Appropriations Committee rejected the White House recommendation
    We appreciate the House Appropriations Committee's acknowledgement 
of the uniformly positive impact of Brand USA's work--and seek your 
support as the process continues in the Senate. With misperceptions of 
the size, quality, and vitality of America's welcome mat now in the 
foreign press, Brand USA's efforts and proven-results have never been 
more important to our communities.
Survey of International Air Travelers (SIAT)
    The Survey of International Air Travelers (SIAT), conducted on a 
monthly basis continuously since January 1983, provides information on 
passenger trip planning, travel patterns, demographics and spending. 
This travel data from inbound foreign visitors is critical to the 
promotion strategies of destinations in Florida and across the Nation.
    The Administration's FY 2018 budget proposed disrupting SIAT's 
funding--but the Senate Appropriations Committee last month included 
report language explicitly rejecting the Administration proposal and 
even encouraging an increase in the sample size--important because the 
Commerce Department is also considering reducing the survey size and 
raising its fees.
    The pending House version of the Commerce funding bill is silent on 
SIAT, so we still have work to do--and we would appreciate your 
support.
Passenger Facility Charge
    A key barrier to the travel industry's growth and future 
competitiveness is the poor condition and performance of our Nation's 
airports. As a result of misguided Federal policies, too many of our 
Nation's airports are outdated and unable to handle passenger demand.
    These problems are forecast to worsen and will soon be 
unsustainable. Within the next four years, the top 30 U.S. airports 
will experience passenger volumes, congestion and delays equal to the 
day before Thanksgiving at least once per week. The Federal Aviation 
Administration predicts that travel demand will exceed capacity at many 
of the Nation's largest airports within the next 15 years, unless 
airports achieve sustainable levels of capital investment.
    The Passenger Facility Charge (PFC) user fee is an indispensable 
tool for local communities to make their own decisions about whether 
and how to finance airport modernization. Adjusting the PFC ceiling 
would finally allow each airport authority to tailor its own PFC rate 
on a project-by-project basis in order to maximize efficiency, reduce 
project costs and ensure fiscal responsibility. This would also allow 
large hub airports to rely almost entirely on local user-fee funding, 
and enable Congress to redirect Airport Improvement Program (AIP) 
grants for large hubs to smaller airports that require more Federal 
assistance. At Tampa International Airport, the PFC was used to expand 
Airside F, enabling new service from Copa Airways, Edelweiss Air, 
Lufthansa Airlines and, in three weeks, Icelandair. This is in addition 
to British Airways expanding their service at Tampa International 
Airport and Southwest Airlines adding commercial service to Havana, 
Cuba. One daily non-stop flight from Europe creates a $156 million 
annual impact for this region and creates 1,200 jobs. These jobs are 
essential to the economic health of our State. The Mise en Place 
Companies are a good example of the PFC being used in a way that spurs 
growth and jobs. We joined forces with other local companies and a 
national concession powerhouse to create TPA Hospitality Partners, LLC, 
to invest millions of dollars in retail build-out at the airport, and 
to own and operate eight food service establishments.
    I'm pleased to report that last month, in the FY 2018 
transportation-funding bill, the Senate Appropriations Committee 
included an increase in the PFC cap, from $4.50 to $8.50 for 
originating passengers. By adjusting the Federal limitation on the cap, 
the Committee language would unlock desperately needed airport 
infrastructure investments that will improve the passenger experience, 
facilitate growth in domestic and international air travel, and make 
America's economy more globally competitive. This would be the first 
increase in 17 years and would protect rural passengers from having to 
pay a higher PFC twice on connecting flights.
    The Senate committee language was supported across the political 
spectrum, from the Heritage Foundation to the U.S. Conference of 
Mayors. But the path ahead is uncertain. There is no such provision in 
the Senate FAA reauthorization bill; and as you well know, the overall 
appropriations process faces parliamentary turbulence. Still, this is 
significant progress on which to build--and we're grateful for the 
Senate's leadership.
Open Skies
    In recent decades, a cornerstone of American aviation policy has 
been the 100+ Open Skies agreements that the U.S. has negotiated with 
countries around the world. By reducing government interference in air 
travel, Open Skies agreements have yielded hundreds of thousands of 
American travel and manufacturing jobs, billions of dollars in U.S. 
economic growth, lower airfares for travelers, more flights to airports 
beyond major gateways and new opportunities for U.S. airlines willing 
to take advantage of them.
    Regrettably, the large legacy airlines have sought to disrupt 
existing Open Skies agreements with the Gulf carriers. U.S. Travel has 
participated in a diverse coalition of airlines, travel businesses, 
destinations, cargo companies and others opposed to this attack on our 
Open Skies treaties.
    On the merits of the Open Skies debate, we feel strongly that:

  <bullet> Open Skies is critical to fixing America's trade deficit. 
        These agreements grow international inbound visitation. Every 
        dollar spent by an overseas visitor to the U.S. counts as an 
        export and closes our trade deficit. In 2016, U.S. travel 
        exports contributed $246 billion to our balance of payments.

  <bullet> Open Skies creates jobs and has great economic impact across 
        Florida. In 2016, Gulf carrier flights brought 143,000 
        additional visitors to Fort Lauderdale, Miami and Orlando. 
        These additional visitors spent $451 million at Florida 
        businesses in these markets, which supported more than 6,000 
        jobs and $291 million in income to Floridians.

  <bullet> Open Skies agreements boost made-in-America manufacturing. 
        Because of Open Skies, the Gulf carriers have committed to 
        purchasing American products and strengthening our 
        manufacturing base. The three Gulf airlines have over 300 
        Boeing planes on order or currently in use, including 777s and 
        new Dreamliners. These orders support thousands of American 
        manufacturing jobs across the Boeing supply chain.

    In recognition of the broad economic benefits of U.S. Open Skies 
agreements, the Senate Appropriations Committee recently included 
positive report language on Open Skies in the 2018 transportation-
funding bill. The Committee directed the Transportation Department to 
consider whether any further action is necessary in response to 
allegations by the large legacy U.S. carriers regarding unfair 
subsidies--and further encouraged DOT to protect the interests of 
travelers, the travel industry and the broader economy if any further 
action is taken.
    Open Skies agreements have led to hundreds of thousands of new 
American travel and manufacturing jobs, billions in U.S. economic 
growth, lower airfare for travelers, more flights to more airports, and 
new opportunities for U.S. airlines. Overall, they create a widespread 
effect for not only the large companies, as is often thought, but also 
a trickle down effect that actually benefits to small companies, 
communities and individuals. The Committee's report dismisses the U.S. 
legacy carriers' parochial arguments to roll back those agreements--and 
we will continue to press this issue with the Administration and in the 
Congress.
Balancing Security and Travel Facilitation
    In recent months, the Administration has proposed or implemented a 
battery of new policies intended at protecting national security--from 
the President's executive order on immigration and travel to stricter 
vetting of visa applications. The travel industry certainly appreciates 
the need to adapt to evolving terror threats because, without 
confidence in public safety, no one will choose to travel here.
    But there is more to the equation, for the United States--and 
especially for Florida, one of the Nation's prime destinations for 
inbound international visitors. America needs to convey a clear global 
message that, while we aggressively confront all threats, we still 
welcome overseas visitors coming here to relax on our beaches or close 
deals in our boardrooms.
    As specific security proposals have been rolled out over the last 
few months, travel professionals across the country have sought to help 
Federal officials explain and implement them. At the same time, we have 
drawn on our expertise to analyze and detail for policymakers how these 
changes impact the real-life travel experience--with particular concern 
about unnecessarily exacerbating delay, confusion and inefficiency for 
travelers.
    The international travel marketplace is highly competitive. While 
the United States--and states like Florida in particular--are highly 
attractive destinations, foreign travelers have countless other 
choices. And it is clear that one factor in consumer decisions about 
where to travel is the perception of a potential destination's 
hospitality.
    America is renowned as a welcoming nation. From our iconic cities 
to the Nation's heartland, visitors know ordinary Americans will greet 
them with open arms--but only if they can get here. In the echo chamber 
of the foreign press, the series of stricter visa and entry policies 
announced in recent months could serve to discourage potential 
visitors.
    In the years after the September 11 attacks, labeled by our 
industry as the ``Lost Decade,'' travel to the United States plummeted. 
We battled back to regain our historic share of the marketplace, but it 
took ten years--and was then possible only because of sustained White 
House commitment to a National Travel and Tourism Strategy. This inter-
agency strategy, announced in 2012 in Orlando, not only set ambitious 
goals for volumes of international visitors, but also made sensible, 
low-cost management reforms that yielded remarkable success.
    For instance, delays in the visa process had gotten so serious that 
applicants in key visiting nations--such as China, India and Brazil--
had to wait over three months for a visa interview. After a 
presidential order requiring most visa interviews within three weeks, 
the delays were reduced to a few days, removing a disincentive to 
travel here and reducing misperceptions about U.S. policy. That was 
outstanding work that could be used as a model. I recall once more my 
time on the Travel and Tourism Advisory Board. The work on this 
subject, by dedicated individuals from the private and public sector, 
was long and arduous with results that were broad and deep. Great 
progress was made and overwhelmingly positive effects were realized--
more travel, more jobs, more prosperity and, we believe, more security 
through greater understanding of one another as people and communities.
    For this reason, we were alarmed when the Trump Administration 
recently reversed the State Department's goal to meet a three-week visa 
interview goal for most visa applicants. After engaging the 
Administration to review its rationale, U.S. Travel--joined by 20 
national travel and business leaders--wrote to President Trump to ask 
him to reconsider. Our letter detailed the significant economic impact 
of visa processing delays, then asked the White House to reiterate our 
Nation's commitment to an efficient, world-class visa process--and to 
back that statement up with full staffing of consular personnel to meet 
the growing demand from overseas visa applicants.
    The good news is: so far this year, visitors are still choosing 
travel to the United States. The data is still very preliminary since 
international travel is typically planned long in advance, but our 
fingers remain crossed. And this is where Brand USA comes in: never has 
its statutory mission of explaining our security protocols overseas 
been more essential.
Open For Business
    In Florida and across the nation, the travel community is being 
challenged on a daily basis but we remain upbeat and optimistic. The 
United States remains the top global destination. We're working each 
day to grow our share of the competitive and lucrative international 
market--while also serving the needs of our domestic travelers.
    It's our role to create the jobs--but there are government policies 
that can help, rather than hurt. As outlined, above, we need to adjust 
the PFC cap, support Brand USA, and defend Open Skies. By accelerating 
airport modernization, promoting the United States as a global 
destination, and preserving successful international air route 
governance, we can go a long way to conveying a clear global message--
to both leisure and business travelers--that America is open for 
business.
    Thank you again for the opportunity to participate in today's 
hearing.

    Senator Nelson. Thank you, Ms. Ferenc.
    Dr. Roffer.

          STATEMENT OF MITCHELL A. ROFFER, PRESIDENT,

      ROFFER'S OCEAN FISHING FORECASTING SERVICE INC.; AND

       ADJUNCT FACULTY, FLORIDA INSTITUTE OF TECHNOLOGY,

          DEPARTMENT OF OCEAN ENGINEERING AND SCIENCES

    Dr. Roffer. Thank you. I'd like to thank you, Senator 
Nelson, for inviting me, and the panel for hearing me. I wish 
the screen had been put on the side.
    While I have done 10 years worth of research, the NASA 
funded research involved the Gulf of Mexico and various 
fisheries here and around the United States. Today, I'm going 
to be talking more about the fishing industry.
    So when we wake up in the morning, Floridians and tourists, 
we all have the assumption of clean water and clean air, and up 
to now, we've had it. So the assumption of clean air and water 
goes to an abundant source of resources that includes fish and 
undersea fisheries and biodiversity. Healthy ecosystems is, in 
fact, the economic engine in the state.
    Recreational boating in Florida has put together 
approximately $10 billion in value. Eighty-three thousand to 
115,000 jobs have gone to strictly recreational boating in the 
state of Florida. The Tarpon Bonefish Foundation estimated the 
actual impact of the state's saltwater fishing as $7.6 billion. 
So the fishing industry is quite a big deal in the state of 
Florida.
    As we know, we have a decline in water quality, as we've 
seen recently around the state. It's a decline in revenue, as 
we've heard from other panelists and yourself, Senator Nelson, 
as well as a loss of reputation which we've also heard. The 
biggest threats that I've seen is now what's under our 
control--is water quality and habitat degradation and loss.
    Secondary threats, but big threats as well, not under our 
control, unfortunately, is climate change, and these things 
involve changes in fish migrations. The water gets too hot, the 
fish don't visit Florida anymore, and we don't have fish in our 
areas for fishermen to go, or the catchability changes. Climate 
change involves sea level rise, changes in pH, as well as 
changes in oxygen levels.
    So the threats in our state come from inside the state and 
outside the state. We didn't have to go too far--and you've 
already discussed it--if you turn around just briefly, you'll 
look at a reminder of the Deepwater Horizon spill, what it did. 
We talked about the beautiful beaches in Panama Beach were 
turned into, unfortunately, an oil color. And we also should 
not forget the Deepwater Horizon and the amount of oil that 
spilled that destroyed animals and potentially our beaches 
throughout the entire state.
    We look at the polluted water, not just the oil that was 
recoverable. The water--we tracked the water that actually 
touched the oil at some point and tracked it using satellite 
data around the state. We noticed that it came off the West 
Florida shelf and down into the Keys, and then we lost 
continuity with it, and we really couldn't tell. So had we not 
had the loop current pulling this oil away and the wind not 
cooperating, we would have had a lot of oil on the west coast 
of Florida as well as the Florida Keys.
    So in terms of Gulf Stream connectivity, we have a great 
deal of threat in terms of industrial threat or even terrorist 
threat, one from the Gulf of Mexico using a loop current in the 
Gulf Stream system. The other is from Mexico and Cuba. Put 
something in the Gulf Stream, and it will go into the Florida 
Keys and the east coast of Florida. Also, we have threats from 
out-of-state that work down the east coast of Florida from the 
north. These are all critical issues in terms of water quality.
    So in-state water quality threats--we've changed our 
patterns of water flow throughout the state. The water used to 
run straight down the Everglades. It was a great thing. 
Unfortunately, at the time, people thought it was best to put 
in canals and divert the water to the coast. Unfortunately, 
people have been dragging our feet to get that water flow back 
to the Everglades where now Florida Bay is starving from lack 
of freshwater. So other water projects in the state have 
changed the flow alternations which, in fact, changes the 
ecosystem in the state.
    One of the other threats to the state of Florida is the 
lack of user remediation. Users are not required in the state 
of Florida to clean their water after using it, whether it's 
you or I, or industry. They use the water and they put it right 
back into the canals, the rivers, and the bays, and then the 
rest of us have to suffer. Algae blooms--polluted water is 
dumped right back in. I mean, Lake Okeechobee is a classic 
example of agricultural dumping into the lake, and that water 
now has been spread to both sides of the state, causing a great 
deal of problems.
    Another threat is no environmental bond is taken for 
remediation insurance for people who use the water and have 
coastal businesses. An example--people simply, when they have 
an environmental problem, like they had at Piney Point several 
years ago in Manatee County--``Well, we'll go out of business. 
We won't worry about the problem. We'll walk away from it and 
let--that's the state's problem.'' That became a big problem. 
Added phosphate to the water, and now people are even talking 
about putting that water in subsurface and doing some internal 
drilling to put that nutrient rich water away.
    Algae blooms is a major, major threat. We have too much 
nitrogen and phosphorus in our ecosystem. It comes from a whole 
host of varieties of sources. We've changed from really great 
sea grasses, which support a lot of our ecology, to a real big 
mess. This is an example, the picture here, showing what 
happened just last year from the water spill coming down from 
Lake Okeechobee--fish kills, animals were killed, and look at 
the human advisory. This goes in the news all around the world, 
and people--``Why should we come to Florida anymore?''--because 
you can't even touch the water. So this is a big problem. 
Boatwork people have lost money. Hell's Bay Boatworks lost $1.5 
million--a very popular skiff making company in central 
Florida, Titusville.
    Red tide comes from too much nitrogen and phosphorus, which 
we can control. It is a major problem. Sarasota, Pinellas 
County--you recognize this picture. This is from your beaches 
here just a few years ago. Smelly fish on the beaches. The 
beaches--they're not going to go there--plus the toxic in the 
air, the burning of the eyes and the lungs of the tourists.
    Another threat we have in the state of Florida is the lack 
of an integrated coastal ocean observing system. We have no way 
to monitor the health of our ecosystem as it is right now, none 
whatsoever. There are some minor studies done by the state. We 
really need an integrated ocean observing system in the state. 
This is like having a doctor checking the health, the diagnosis 
of the ocean. It protects the economic engine. It just doesn't 
tell people about where there's blooms. It's very important. 
Nationally, there's a bill, Bill 1425, that's up, and we would 
like all your support for that.
    Climate change--as I go into my final slides on this. It's 
more than just warming. It's oxygen loss. It's pH. When you 
have pH declining, heavy metals increase the toxicity. One of 
the panelists mentioned that, well, sea level rise is not a big 
deal. Ask the people in South Beach if sea level rise is not a 
problem. This has become a daily occurrence now in South 
Beach--closing beaches. That's a big problem. When your beaches 
close due to sea level rise and municipal waste going in 
because the sewers are backing up, that's a problem.
    Habitat loss--well known. Our coral reefs are dying from 
overheating from global warming as well as vessel groundings. 
Look at the beautiful coral on the left in 1980, and in 2011, 
and even worse now. This is our economic engine, and we're 
letting it crash in front of us. Habitat loss from development 
has taken away so many mangroves, which filter the water, which 
help keep our economy going strong.
    The threat from highly migratory species. If that's not 
managed properly, then the fish will lose--will decline in 
abundance and won't come into our waters. A lot of the fish 
that I'm talking about are internationally managed, but some in 
the state. I won't get into the red snapper issue whatsoever. 
There's other issues with regard to fisheries management, 
namely, the antiquated management assessments that they have--
single models. But that's in my written testimony. I won't go 
into that now.
    Port development and industrialization. Yes, we need better 
transportation in the state, but we do not need to become like 
New York or Newark, New Jersey. The picture up at the top is 
from Cape Canaveral as it presently looks. The picture below is 
from Newark. Which one would you rather have? I certainly 
wouldn't want our ports and bays to look something like this.
    Additional threats are in my presentation as well as my 
testimony. We have outdated municipal water treatment 
facilities. Sewage is dumping right into the water and 
elsewhere--not good for tourists when they see pictures of 
floating poop in our water.
    Loss of groundwater. Municipalities gain too much water 
without proper management plants. Intake from power plants for 
cooling. We haven't talked about nuclear meltdown. That used to 
be a thing of science fiction in the movies, but Japan showed 
us otherwise a couple of years ago. Importation of exotic 
species, and, of course, loss of access to the water and the 
need to dredge waterways is very important to have our access 
to the water.
    So I've taken a little bit too much time, but I thank you. 
The picture behind you shows how some people enjoy the water, 
and let the questions begin.
    [The prepared statement of Dr. Roffer follows:]

  Prepared Statement of Mitchell A. Roffer, President, Roffer's Ocean 
    Fishing Forecasting Service Inc.; and Adjunct Faculty, Florida 
 Institute of Technology, Department of Ocean Engineering and Sciences
Introduction
    I am Mitchell A. Roffer, President of Roffer's Ocean Fishing 
Forecasting Service Inc., and Adjunct Faculty at the Florida Institute 
of Technology, Department of Ocean Engineering and Sciences. I received 
my Doctorate from the University of Miami's Rosenstiel School of Marine 
and Atmospheric Science in Biological Oceanography. 
ROFFS<SUP>TM </SUP>provides a variety of consulting services to the 
recreational and commercial fishing industries, as well as, to the oil 
and gas industry, ocean towing industry, environmental consulting 
organizations, as well as, to academic and government organizations. I 
am actively involved in ocean research with a variety of collaborators 
from academia, the government sector and non-governmental 
organizations. I was a member of NASA's Ecological and Biodiversity 
Science team for 11 years. Thus, I am in constant contact with a broad 
range of people who conduct business in Florida, as well as, fish in 
Florida in addition to those visitors who travel to Florida to fish and 
use the water.
    When people visit Florida as tourists and when Floridians get up 
each morning they assume that the air and water will be clean and that 
the waters will provide an abundance of marine life whether it be fish, 
marine mammals like dolphins and manatees, turtles, or birds. Over the 
years Florida has had sufficient clean air, clean water and healthy 
marine life to support good fisheries and fantastic tourism. The 
National Marine Manufacturers Association estimated that the total 
annual economic impact of recreational boating in Florida is $10.35 
Billion. Recreational boating provides for approximately 83K jobs in 
5.5K businesses. See (http://www.nm
ma.org/assets/cabinets/Cabinet508/
Florida_Boating_Economics%20State.pdf). The State of Florida (http://
www.myfwc.com/about/overview/economics/) cites very similar numbers.
    Governor Scott's Report (http://www.flgov.com/2016/06/10/gov-scott-
florida-continues-to-lead-the-nation-in-saltwater-fishing-jobs-and-
revenue/) indicates that with 2014 data from NOAA, indicates that 
Florida is number one in the Nation in jobs supported by the 
recreational saltwater fishing industry at 114,898 jobs. The report 
states ``Our state's world class boating and fishing also helped 
attract a record 105 million tourists in 2015.'' According to the 
report, Florida's commercial seafood industry was third in the Nation 
in 2014 in numbers of jobs supported with 92,858 jobs. Florida is also 
second in the Nation when it comes to highest sales, income and value-
added impacts from the commercial fishing industry with 18.3 billion in 
sales impacts. The 2014 data are the latest economic data available.
    The Bonefish & Tarpon Trust estimated that statewide, saltwater 
fishing has an annual economic impact of $7.6 billion. When considered 
by region, some of the annual economic impact numbers are: $1 billion 
for the Florida Everglades; $765 million for the Florida Keys; $110 
million for the tarpon fishery in Charlotte Harbor; and $59 million for 
the Treasure Coast tarpon fishery.
    These are the economic yields are only possible if Florida 
continues to have clean air, clean water and healthy ecosystems, our 
true economic engine. Unfortunately, during the last few decades we 
have witnessed declines in the water quality and habitat which are 
impacting the fisheries and associated economies. For example a recent 
Miami Times article cites that that Hells Bay Boatworks of Titusville, 
FL which manufactures fishing skiffs, lost $1.5M in boat sales in 
Florida in association with declining water quality and fish abundance. 
The article reports loss of sales for other boat manufacturers as 
well--all due to Florida's water quality and habitat issues.
Threats to Florida's Coastal Ocean Economy
Threats Coming from External Sources
    Threats to our coastal ocean economy come from sources external and 
inside (domestic) the State of Florida. Threats from outside the state 
include pollution from oil and gas development as evidenced by the BP 
Deepwater Horizon where oil from another state was transported by the 
currents and winds to the Florida panhandle and along the west Florida 
coast. If we were not so lucky to have a very large Loop Current eddy 
form and pull the oil westward, the oil would have reached the Florida 
Keys and southeast Florida. (images of oil and currents).
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. ROFFS<SUP>TM </SUP>Oil Oceanographic Analysis from May 
24, 2014 with evidence that what ROFFS<SUP>TM </SUP>was mapping was oil 
from the British Petroleum Deepwater Horizon oil spill
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. A reminder of what the Deepwater Horizon oil spill looked 
like at ground level.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. Map of the water (red) that came in contact with the BP 
Deepwater Horizon oil. Note that ROFFS<SUP>TM </SUP>was able to 
reliably follow the polluted water into the Florida Keys.

    Oil and chemical pollution along with other hazardous materials 
could easily come to Florida from Mexico via the Yucatan Current and 
Cuba via the Florida Current both part of the Gulf Stream. It could 
also come from other south Atlantic states (e.g., North Carolina, South 
Carolina and Georgia) as the currents all provide pathways to Florida 
as shown in Figure 4.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. Modified from a ROFFS<SUP>TM </SUP>Oil Oceanographic 
Analysis shows blue arrows as the major ocean current paths of oil and 
other pollutants to enter Florida waters.
Domestic Florida Threats
    Perhaps the biggest threat to Florida's fisheries and nature-based 
economy come from within. Altered freshwater flows to our estuaries are 
causing significant damage to coastal ecosystems, with predictably 
negative impacts on fisheries and tourism. The 2016 algae bloom in the 
St. Lucie Estuary was bad enough it made national news, as did the 
large fish kills in the Indian River Lagoon and Florida Bay. As bad as 
these events were, they are reflections of a much larger issue--a long-
term and worsening strategy of water and habitat management. Clean 
water and healthy habitats are the factory that produces the fisheries 
and nature-based tourism for which Florida is famous. Unless the 
strategy is changed to protect and restore water quality and habitats 
rather than exploit them, the state's fisheries and mature-based 
tourism will continue to decline, as will their economic impact.
    A major issue is the poor water management within the State. 
Industrial and other users of our precious water resources are not 
required to completely remediate their water after they use it. So 
fantastic amounts of nutrients, pesticides, hormones from cattle, 
citrus and other agriculture get dumped into the canals and rivers that 
either run to coasts via the canal system or enter our lakes. These 
result in algae blooms that kill our ecosystems. For example, Lake 
Okeechobee receives nutrient and pesticide polluted water and then 
algae blooms form. Some like cyanobacteria are harmful to humans.
    The polluted Lake Okeechobee water is diverted from its natural 
flow to the Everglades to the east coast and west coast via Port St. 
Lucie and via the Caloosahatchee River estuary. In the last few years 
we have experienced massive fish kills from the toxic water from both 
the toxins in the water, from the massive abnormal amounts of 
freshwater in which the fish, marine mammals, and invertebrates can not 
survive in. The algae shades the sea grass resulting in its demise.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 5. A montage of dead animals from polluted water around Port 
St. Lucie in 2016. The Department of Health posted warnings to avoid 
contact with the water.

    When either the fish die or the algae dies, the decomposition uses 
most of not all of the available oxygen producing anoxic conditions 
which kill the remaining organisms. This is happening all over the 
state in different degrees. In my backyard, the Indian River Lagoon 
system lost between 60 percent and 80 percent of its sea grass from 
algae blooms blocking the light from the bottom vegetation. Also when 
the plants die the increased turbidity from the sediments along with 
the algae bloom prevent new vegetation from growing back.
    The algae bloom threat to the Florida fishing economy also comes in 
the form of red tide and other hazardous algae blooms (HABS) that not 
only kill fish, but also produce airborne irritation that causes 
serious respiratory problems along with coughing, sneezing, and burning 
eyes to coastal visitors. Loss of beach traffic and fishing causes 
significant economic loss. The HABS threat is directly related to the 
increase in nutrients entering the water from numerous sources 
including agriculture, urban runoff, leaking septic tanks, residential 
use of fertilizer, and grass clippings entering the water, etc. Another 
threat is the lack of economic data on the losses from such events. 
Florida State and local tourist departments do not like to talk about 
red tide and algae blooms. They would rather show photos of beautiful 
beaches and amusement parks.
    What happens to the Florida economy when algae bloom occur? Fish 
leave the area and/or die and people stop fishing and buying equipment, 
bait, and boats. In the past 18 months it has been estimated that 
Hell's Bay Boatworks, a major Florida boat manufacturer has lost $1.5 
million in revenue recently due to the loss of sales. They minimized 
their losses recently by shipping their boats out of state for sale 
which historically they never did. Other Florida-based boat 
manufacturers have lost 80 percent of their revenue. (see Miami Times 
article by Isabella Gomes August 04, 2017. http://
www.miaminewtimes.com/news/florida-boat-industry-underwater-from-water-
crisis-9502729)
    While our coastal areas are getting too much freshwater from the 
center of the State, the southern Everglades and especially Florida Bay 
is suffering from lack of freshwater. The National Academy of Sciences 
has considered this as well as all the so-called water managers. A 
short review can be found in the Miami Herald (http://
www.miamiherald.com/news/local/environment/article126205254.html). 
Apparently Florida Bay needs approximately 30 Billion more gallons of 
freshwater per year. See the free National Academy of Sciences 
``Progress Toward Restoring the Everglades: The Sixth Biennial Review--
2016'' (https://www.nap.edu/catalog/23672/progress-toward-restoring-
the-everglades-the-sixth-biennial-review-2016).
    Another threat is the loss of groundwater and the pollution of 
groundwater. In my opinion we are selling too much of our groundwater 
and managing our surface freshwater poorly. In some cases like the St. 
Johns River Management District, they are allowing municipalities to 
extract more freshwater from the St. Johns River than a safe water 
budget requires. Downstream the ecosystems suffer from lack of water.
    To fix these problems one must stop the pollution, fix the plumbing 
and restore the ecosystems. This takes expertise, comprehensive study 
and monitoring and of course time and money. Brevard County has taken 
steps to repair and restore the Indian River Lagoon through a special 
sales tax the residents voted for. Only time will tell if we waited too 
long to act.
    Another domestic Florida threat to the coastal ocean economy is 
from industrial waste pollution being dumped into our Florida waters. 
This threat includes phosphate mining discards and storage water from 
the industrial processing. I remind you of the Piney Point, Florida 
polluted waste water ``containment'' ponds breaking and entering the 
Tampa Bay in 2003. A ``solution'' permitted by the Florida Department 
of Environmental Protection was to allow partially treated highly 
polluted water to enter the coastal waters of Manatee County. Now there 
is serious discussion about injecting this polluted water underground. 
We learned from the BP Deepwater Horizon that polluters often want to 
remove the surface pollution to keep the public and media from seeing 
it. A related threat is that businesses are not required to post a 
meaningful, non-refundable environmental remediation bonds. Thus, many 
polluters ``go out of business'' and walk away.
    One domestic threat to our Florida economy is the lack of a fully 
funded, comprehensive coastal ocean monitoring system. This would allow 
objective, non-politically motivated scientists a continuously funded 
system to gather the necessary data to understand the changes in the 
health of the ecosystems. Automated and non-automated warning systems 
based on complete sampling regimes can be devised. Presently the State 
only samples a relatively few areas on a limited schedule. Based on my 
experience and opinion, it appears they do not sample extensively or 
comprehensively so that they do not find problems or the sources of the 
problems. A coastal ocean observing system would protect the economic 
engine of Florida by monitoring the health of the ecosystem and provide 
information that would be used to create management strategies to fix 
the problems before they become too severe. The idea is to identify the 
results of the good management practices and non-effective practices. 
Having a coastal ocean observing system is like having a full time 
medical doctor watching your health. Observations and diagnoses must be 
made to properly treat the patient. In our case the patient is the 
Florida ecosystem and Florida tourist economy. Such a system would also 
likely save lives from the resulting real-time current data and 
improved search and rescue models.
    Another domestic threat to our economic engine is the loss of fish 
nursery habitats and the degradation of all fish related habitats. This 
is important as the amount of habitat greatly influences the total 
abundance of a fish species. It is well known that habitat quality and 
connectivity will influence fish health, survival, and abundance. 
Cutting the natural flow of water and destroying nursery and essential 
habitat will destroy the fisheries that are an economic engine in 
Florida. According to Dr. Aaron Adams of the Tarpon Bonefish Trust who 
studies such issues, there has been a loss of approximately 50 percent 
mangrove habitat in Florida. At least 9.3 million acres of wetlands, 
more than two million acres of seagrass and up to 80 percent loss of 
naturally occurring oyster beds. This has caused a decline in the 
abundance of many fish that are fished recreationally and commercially. 
Given that the Florida Fish and Wildlife Conservation Commission does a 
good job managing fisheries, it is clear that the declining fisheries 
are due to habitat loss and degradation. We can not afford to lose any 
more habitat and the negatively affect habitat should be remediated. 
These habitat losses stem a variety of causes particularly coastal 
development, water pollution, poor management of the freshwater flow in 
the State.
    The loss of coral habitat is a particular threat to Florida's 
fisheries and tourist economy. Coral habitats are nursery areas for 
many fish that are important components of the Florida fishing economy 
such as snappers and groupers. They are also the habitat for important 
adult fisheries. Coral reefs have been destroyed by improper anchoring 
and by direct damage by boat groundings.
    A much larger threat to the coral ecosystem is coral bleaching from 
overheating of the waters and also due to the decline in pH of our 
oceans. Not only do corals die from overheating, they are also more 
susceptible to diseases. See Eakin et al., 2010 (https://doi.org/
10.1371/journal.pone.0013969) for more details)
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 6. Photo of the same area of Florida corals taken in 1980 
and 2011. Photo credit Mote Marine Laboratory

    Another Florida domestic threat to our fisheries tourist economy is 
the dumping of treated and untreated wastewater into our canals, 
rivers, estuaries and oceans. The threat is that many water and 
municipal managers think that the solution to pollution is dilution. 
This is a dangerous threat to the Florida economy. Firstly the polluted 
water should be totally remediated by its users before being returned 
to our rivers, bays and oceans. Just last week the Miami Metro-Dade 
County sewage outfall pipe was found to be leaking polluted water in 
the coastal waters. See http://www.miamiherald.com/news/local/
environment/article164655777.html
    Part of this wastewater threat is that water treatment plants in 
the State have not increased their operational capacity or modernized 
their treatment technology. Far too many pharmaceuticals, pesticides, 
pesticide by-products and nutrients enter our waters from our permitted 
municipal water treatment plants. These are negatively affecting our 
fisheries ecosystems from the rivers and bays to the ocean ecosystem 
including hard and soft reef ecosystems.
    Improved wastewater treatment is especially urgent given that many 
Florida homes must be converted from septic tanks to municipal sewerage 
systems. Numerous studies have demonstrated that many regions of 
Florida are not appropriate for septic systems, and in many locations 
the density of homes is too high for septic systems to be effective. 
These septic systems leak excessive nutrients into Florida's coastal 
waterways, adding to the problems associated with surface runoff.
    Inadequate or improper fisheries management is a threat to the 
State fisheries tourism. Since Florida fisheries operate in State and 
Federal waters the fisheries are managed by the State and by the South 
Atlantic Fishery Management Council and the Gulf of Mexico Fishery 
Management Council. The threat is the lack of modernization of their 
stock assessment methods from data collection to single species models 
that do not incorporate environmental data--covariants into their 
assessment. Estimates of abundance are often biased and often do not 
reflect what the fishermen are experiencing in the water or what modern 
estimates of abundance would show. Over managing the fisheries results 
in opportunity losses, but under-management or mismanagement results in 
overfished stocks. A multi-species, habitat oriented and 
environmentally sensitive system of stock assessment and management 
needs to be established.
    Another threat to Florida fisheries is the poor management and 
over-fishing of fish stocks outside Florida that migrate to Florida. 
When populations that migrate to Florida decline in abundance, then it 
affects the Florida fisheries. Tuna, swordfish, sailfish along with 
blue and white marlin are examples of this. See Restrepo et al., 2003 
(https://doi.org/10.1071/MF02057) and http://www.takemarlinoffthe
menu.org/global_status_of_billfish. Recent efforts to ban commercial 
swordfish longline fishing in Florida waters has been effective for 
Florida's recreational swordfish fisheries. The threat is to open this 
fishery to commercial longlining again. The bycatch of many other 
valuable species occurs during longlining operations.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 7. Example of recreationally caught swordfish in Florida 
(left). Photo credit Richard Gibson and Marlin Magazine.

    Another threat to the Florida fisheries economy is the mortality of 
fish caught, removed from the water to take photos that damage the 
fish, and returned to the water. This threat comes in the form of lack 
of enforcement of existing laws on removing highly migratory species 
from the water, and also due to the lack of educational programs to 
educate fishers of this issue.
    Port development is yet another threat to the Florida economy. The 
tourist economy benefits from cruise ships bringing visitors to 
Florida. However, the further development for cargo and ships that 
transport chemicals including petroleum is a threat as they add 
additional pollution to the port areas and the surrounding land areas 
through increased truck traffic as associated pollution. My personal 
view is that Florida ports should not become like the Port of Newark, 
NJ. Port expansion usually results in the loss of essential fish and 
bird habitats.
    Another threat to the Florida fisheries economy is leakage of 
nuclear waste and overheated water from nuclear power plants. A further 
threat is the loss of fish larvae and juvenile fish that are killed 
when the power plants pump water to cool their power production.
    Additional threats come from fish and other wildlife being imported 
illegally or disposed of illegally. One only has to look as far as the 
Burmese python in south Florida and central Florida. The lionfish is 
another example of alien species changing our ecosystem. See http://
myfwc.com/wildlifehabitats/nonnatives/ for a list.
    A final threat to the Florida fisheries economy is climate change. 
The change in the absolute abundance along with the changing of the 
migratory patterns in time and space is a major issue. For example 
warmer winters have resulted in the late or reduced arrival of the 
migratory sailfish into south Florida waters. Without reliably good 
fishing many tourists who have traveled to Florida are not traveling to 
other locations (e.g., Costa Rica, Guatemala, and Dominican Republic) 
to fish. Temperature increases are causing significant coral reef 
mortality and disease. Sea level rise and increase flooding in some 
Florida locations like Miami have a negative impact on marina 
operations including boat dockage and storage.
Most Important Threat
    To list which single overall threat is the biggest is a difficult 
task. In the present and near term, water quality along with the 
degradation and destruction of habitat is the biggest threat. In the 
future, water availability and quality along with climate change are 
likely to be the biggest issues.
    I would like to acknowledge help in the writing/editing of this 
testimony including photo sources: Aaron Adams (Bonefish Tarpon Trust), 
Mark Eakin (NOAA), George Maul (Florida Institute of Technology) and 
Kellie Ralston (American Sportfishing Association).

    Senator Nelson. All right. Thank you, Dr. Roffer.
    I want to welcome all the folks from so many different 
counties that have come today. Would all the elected officials 
who are in the audience--would you stand and be recognized, 
please?
    [Applause.]
    Senator Nelson. Thank you very much.
    Would all the members of the Chambers of Commerce in the 
entire Tampa Bay region--would you stand and be recognized?
    [Applause.]
    Senator Nelson. Very good.
    And we have a number of environmental advocacy groups that 
are here. Would you stand and be recognized?
    [Applause.]
    Senator Nelson. Well, as you can see, there's broad 
interest.
    Now, in a Senate hearing, what is typical is the Chairman 
will start the questions first, and then the Ranking Member 
will ask. Since I'm running the show, I'm going to break the 
normal, and because of our two congressional colleagues--I want 
you all to have the first chances.
    So, Madam Congresswoman?
    Ms. Castor. Well, good afternoon, everyone. Thank you, 
Senator Nelson, for calling us all together. You simply cannot 
understate the importance of having a leader like Senator 
Nelson from the state of Florida as the leader in the Congress 
when it comes to these issues on the Commerce Committee, 
Science----
    [Applause.]
    Ms. Castor. So thank you very much. And you are right. 
Travel and tourism are the lifeblood of Florida's economy, and 
we've all got to work together to do everything we can to 
protect it and to ensure that it thrives.
    Robin, you'll remember this. It is etched in my memory, 
more than most things in my career, my professional career--was 
in the days after the BP Deepwater Horizon disaster, when we 
convened a working group of small business owners there at the 
TradeWinds on the beach, and we had one business owner who was 
weathering the recession. But, boy, the BP Deepwater Horizon 
came in and it was a very difficult one to punch. She cried. 
She brought me to tears. She was facing significant layoffs and 
maybe an end to her business, and she was not alone.
    In the days--remember that the oil spewed out for five 
months, 5 months, and that was what the rest of the world saw. 
No oil on the beaches in the whole Tampa Bay area, and yet the 
tourists didn't come. So we've learned lessons, haven't we? 
We've got to do everything to ensure that that never happens 
again.
    And God bless the folks here at the University of South 
Florida and the College of Marine Sciences, and, Dr. Sanberg, I 
know you're very proud of them, and Dean Dixon, Dean Hogarth. 
Boy, we had Dr. Weisberg explaining the loop current to 
everyone, and Dr. Hollander that was fighting for the oil 
sample that we had to kind of--we had to shame BP into 
providing--fighting for the research dollars to come. So thank 
you. The Weatherbird research vessel was out sampling the oil 
before anyone else was. So this was ground zero for protection 
of our economy and our environment.
    Senator, you were kind of modest, because you didn't 
mention the role that you played in passing the RESTORE Act in 
the years after the BP Deepwater Horizon disaster. You all 
remember the RESTORE Act was the law that we passed to ensure 
that 80 percent of all of the fines and penalties that BP and 
the other polluters had to pay came back to the Gulf Coast.
    Now, the importance of the RESTORE Act is more plain than 
ever, because we're facing very significant cuts from the Trump 
administration when it comes to science, research, whether 
we're talking about NOAA or EPA or the other science-based 
agencies. But those RESTORE Act funds will continue to flow for 
years to come, and they will be very important in addressing 
algae blooms and the change of climate. But I wanted to thank 
you for that, because I don't think that should go unmentioned 
today.
    But we learned our lessons, and I think, as we set 
priorities for leaving here, we do have to prioritize the 
offshore oil drilling, and it's very heartening to hear there 
is a bipartisan effort to extend the moratorium from 2022 for 
another 5 years. I have filed the Coastal Protection Act for a 
number of years now that would make the moratorium permanent.
    [Applause.]
    Ms. Castor. And we have bipartisan support. But what we 
need is a unified Florida delegation. It's only through 
bipartisan unity that we are going to get that accomplished. So 
I'm going to highlight that to you all.
    The other huge challenge that we're facing, of course, is 
the change in climate, and this is going to be very costly to 
our businesses and everyone that lives in Florida and 
everywhere else. But think about what we're facing here in 
Florida when it comes to cost--higher AC bills, beach re-
nourishment that our local government officials fight for, 
higher flood insurance rates, property insurance rates, 
property taxes, because our local governments are going to have 
to be more resilient in improving water and waste water 
infrastructure. So if we do not act now to get ahead of this, 
we are going to be facing a very difficult future.
    So in addition to clean air and clean beaches, it's time to 
fight for clean energy in Florida. And, Mayor Kriseman, I want 
to thank you----
    [Applause.]
    Ms. Castor.--because here in the Sunshine City, you've been 
the most outspoken advocate--and I see Councilman Rice and 
Councilman Nurse and Commissioner Welch. This is the place 
where it can happen. Did you all know that Florida is one of 
the worst states in the country in producing energy through 
renewables--one of the worst, the Sunshine State. New Jersey, 
Georgia, North Carolina produce more energy through solar power 
than the Sunshine State. I think we can do a lot better, and we 
can have our community thrive. We can grow, we can build jobs 
in this clean energy sector, and it will improve our tourism 
based economy.
    I'd like to offer into the record, Senator, the editorial 
from the Tampa Bay Times just today. They're coming fast and 
furious after the National Report of Scientists on Climate, the 
University of Florida Report that was out today.
    So I'll offer this for the record, ``Climate Threats to 
Florida Mount.''
    [The information referred to follows:]

 Tampa Bay Times--Thursday, August 10, 2017--Opinion--Times editorials

                     Climate threats to Fla. mount

    The latest Federal report on the Earth's warming climate doesn't 
mince words about the disturbing trends, man's contributions or the 
dangers that millions across the globe already face, especially in low-
lying coastal areas in Florida and elsewhere. It is yet another call to 
action for federal, state and local officials--and they all have a role 
to play in curbing emissions of heat-trapping gases, shoring up 
infrastructure, improving flood control and finding more efficient ways 
for societies to grow and manage their populations.
    Drafted by scientists at 13 Federal agencies, the report cited the 
warming trend as ``global, long term and unambiguous.'' Global 
temperatures have increased by about 1.6 degrees over the past 150 
years, the study found, and thousands of studies have created ``many 
lines of evidence'' to conclude that human activity is primarily behind 
the changing climate. The authors found it ``extremely likely'' that 
most of the warming since 1951 was caused by humans, and that even if 
emissions were to cease, existing levels of greenhouse gases in the 
atmosphere would cause temperatures to increase at least a half-degree 
Fahrenheit over this century.
    The report, by 30 lead authors representing agencies such as NASA, 
Federal laboratories, the private sector and universities, is part of 
the National Climate Assessment. That is a congressionally mandated 
analysis that seeks to build on the existing science and provide a 
snapshot of the current state of climate change. It found an increase 
in the frequency and intensity of extreme weather, and warming in the 
Arctic at twice the rate of the global average--a phenomenon that 
couldimpact sea levels, the weather and other patterns in the lower 48 
states. One-third of the sea level rise since 1880 has occurred since 
1990, and coastal communities from the Gulf of Mexico to the Atlantic 
are at increasing risk of routine flooding, saltwater intrusion into 
the drinking water supply and the collapse of roads, utilities and 
other vital infrastructure. That puts Florida's east and west 
coastlines at risk, yet Gov. Rick Scott's administration has beenless 
aggressive than local governments in South Florida and Tampa Bay in 
addressing the challenges.
    The findings contradict the talking points of the Trump 
administration, which has openly questioned the science behind climate 
change and the degree that humans contribute to it, and which has moved 
to reverse the clean-air initiatives of the Obama White House. The 
unpublished analysis was made available to the New York Times days 
before Sunday's deadline for the 13 Federal agencies to approve the 
report. Making the report public at least forces the Trump 
administration to explain why it does or does not stand behind the 
science.
    This national assessment lays a foundation for securing Federal 
funding and regulatory direction on climate policy, and it offers state 
and local governments the technical assistance they need to incorporate 
the impact of climate change into their planning for infrastructure, 
land use and other long-term issues. States and cities, though, cannot 
cede all responsibility to the Federal Government. Studies show 
Florida, for example, has invested trillions of dollars in 
infrastructure with virtually no consideration given to rising sea 
levels. Rising seas could swell Tampa Bay up to 19 inches over the next 
quarter-century,putting tens of thousands of residents at risk. The 
Federal study is another wake-up call about a threat that is real, here 
and more pressing by the day.

    Ms. Castor. This is the challenge of our time. We do not 
want to be left with our children and grandchildren asking us, 
``What did you do? What did you do? Did you address this? Did 
you fight for our way of life?'' We're so fortunate to live 
here.
    So maybe I'll ask my question. Robin, you remember that day 
when we would bring businesses together. What would it mean to 
them now to know that they would have a little more breathing 
room if we were able to extend the moratorium on oil drilling 
off the coast of Florida or make it permanent?
    Ms. Sollie. It would mean the world to them, 
professionally, and I think, personally, because they not only 
work on the beaches but they live on the beaches. We talk about 
this, as you know, and have been for many, many years, and 
thank you for your support on the issue. They're fearful. They 
don't want to see that happen again. So extending the 
moratorium or getting it to be permanent is amazing, and we, as 
an organization in coastal communities, will do everything we 
can to support your role in helping make that happen.
    Senator Nelson. The editorial will be introduced into the 
record.
    Congressman?
    Mr. Crist. Thank you very much, Senator. I want to add to 
what Representative Castor had to say in thanking you. Thank 
you, Senator Nelson, for your great leadership in this arena. 
You understand, as a Floridian, how important all these things 
are to all these people in this room and beyond, how it affects 
tourism, how it affects their businesses, whether they be 
restaurants or hotels or resorts on the beach, or people who 
are fishing, charter people. It has an enormous impact on 
everything that we do.
    You know, I tell people all the time I have the honor of 
representing the most beautiful district in America. So does 
Kathy.
    [Laughter.]
    Mr. Crist. And, of course, the Senator has the opportunity 
to represent the most beautiful state in America. All of you 
here understand that and the importance of what we're talking 
about and these issues, how sea level rise affects us in a very 
direct way, Commissioner, and what it does when it comes to 
flood insurance, the things that Representative Castor 
addressed as well.
    So I'll pose the following question to anybody who would 
like to respond to it. With nearly unanimous scientific 
consensus that man-made climate change is, in fact, real, how 
can we proactively protect our businesses that rely on tourist 
dollars from the impacts of more severe weather-related events, 
such as hurricanes and flooding?
    Ms. Ferenc. I would say--thank you very much for the 
question, and, again, thank you for the opportunity to answer. 
I would say that it's the reason why organizations across the 
county, locally, and at the state level, and then at the 
national level, are so important to us, because getting the 
word out to our state and beyond and internationally now when a 
disaster occurs is what is the difference between it being a 
moment and it being a long, long problem for the economy of the 
state.
    So we really can make a difference, and we saw that. I 
think we've gotten much better at it since the oil spill, and 
we've improved, both at the local and state levels, and at the 
national level, in terms of getting a message out immediately. 
But I think it's the reason why we need to continue to do such 
things like fund Visit Florida and fund Brand USA so that we 
can be--so we are prepared at those levels. If we have the 
funding, we can get that word out and really minimize the 
damage that a hurricane can do in terms of the economic impact 
to the state.
    Dr. Roffer. I think education is part of the issue here, 
too. We have to educate the public with what the real threats 
are versus the non-real threats and how to prepare for a storm 
and how to build properly. I lived in Miami through Andrew, 
and, fortunately, I survived without too much damage to the 
house. But the building codes changed as a result of Andrew, 
and it was just a really--truly was a minimum increase, and 
there should be more increases in the building code as these 
storms, in theory, are supposed to be getting stronger each 
time due to the warming of the ocean. So educating the 
builders, educating the public, and then getting the word out 
to everyone what the real threats are and how to prepare for 
them properly.
    Ms. Sollie. The way I heard your question and how it 
affects businesses and how we can make it easier for them to 
mitigate and deal with it as it's naturally occurring for us 
day in and day out, or it's an immediate occurrence, right, 
with a hurricane. I think, nationally, we need to make 
accessibility to the small businesses more achievable.
    In a lot of instances, whether it's renewable energy, using 
solar panels, protecting their building against sea level rise 
or floods or whatever it is, the entry, the cost for a small 
business owner, which is the lifeblood of our nation, right, is 
too extreme for them to invest in that, to mitigate something 
that they can't see immediately, but they know it'll help them 
later when this happens. But they've got to pay their electric 
bill, right? They've got to pay their lease.
    So I think that there needs to be some, again, planning, 
some foresight to develop programs that could help us fund 
small and medium sized businesses to help mitigate whatever 
that circumstance is in the whole breadth of these threats.
    Dr. Larkin. So thinking proactively makes me think back to 
my first point, which was investing in natural and built 
infrastructure, so certainly things like oyster reefs, offshore 
oyster reefs, and planting sea grasses that can protect coastal 
shores. But when we think about things, I guess, to follow up 
on Robin's point, we think about projects and private companies 
investing and perhaps spending more to develop in a way that 
protects from sea level rise. A portion of that spending is for 
a public good, not just a private good. So, certainly, they 
benefit, absolutely, but there is a public good component that 
all of us benefit from, that does justify public investment in 
that resource through a variety of programs.
    Senator Nelson. Let me see if I can nail down a couple of 
more points for the record. What I've found is that the sea 
level rise that is occurring--and this is not forecast. This is 
not projections. This is measurements that, over the course of 
the last 40 years, have shown that the seas in southeast 
Florida have risen five to eight inches. In fact, the people of 
southeast Florida are getting sensitized to this, because 
they're seeing it on the 6 o'clock news. They're seeing the 
water sloshing over the curbs in Miami Beach, same thing in the 
Las Olas section of Fort Lauderdale. But what I've found in 
other parts of Florida--it's out of sight, out of mind.
    What do you think is going to change in order for this to 
sink in? What, in fact, has happened? Anybody?
    Ms. Ferenc?
    Ms. Ferenc. I would say from that question and from many of 
the comments that you have made today that an education process 
and a campaign, perhaps within our own industry, of 
understanding more critically how our environment is tied to 
the health of our businesses and allowing us an opportunity to 
take more responsibility in the paths that we carve out for 
ourselves and how we're going to conduct ourselves in the 
future and what's going to be important to us might be a 
worthwhile effort.
    Senator Nelson. Yes, ma'am. Dr. Larkin?
    Dr. Larkin. So one of my points was improve terrestrial and 
freshwater environmental systems. One of the things that 
happens in conjunction with sea level rise are changing weather 
patterns. So I think when we do research that tries to 
integrate sort of the biophysical with the economic and all the 
other components is helping people--going back to the education 
point--realize how integrated it is, and it may be investments 
in things to address those changing weather patterns that might 
go a step further.
    Senator Nelson. Dr. Roffer, you certainly indicated this in 
a number of your slides as you were talking about fish and all 
the other things. The effects of climate change are real. Are 
the commercial and recreational fishermen and the charter boat 
captains--are they beginning to see any differences out there 
on the sea?
    Dr. Roffer. Quite a bit. You know, when--for example, the 
south Florida sailfish fishing has been very poor--southeast 
Florida sailfish fishing for the last couple of years has been 
very poor, because we've had warm winters, and the sailfish 
haven't migrated from the Carolinas down into Florida all the 
way to the Keys. So, for example, Charleston had one of the 
best sailfish fisheries they've ever had because the sailfish 
were up there. So fishermen are clearly seeing the change in 
migration of the fish, and sailfish is one of them.
    Cobia is another one that's not--that doesn't stay in the 
state as long as it had once before. It migrates with the warm 
water. As the seasons warm up, they're migrating further north 
and out of our area. So a lot of money goes into cobia fishing 
and sailfish fishing. People have noticed changes in the 
upwelling pattern of the Gulf Stream off of the east coast of 
Florida. We're not sure if it's real or not. The fishermen are 
telling us about it. So a change in upwelling will affect the 
availability and the catchability of these fish.
    So to answer your question, yes, fishermen are starting to 
see it, and those that are seeing it are starting to understand 
it and realizing this is real.
    Senator Nelson. Are they speaking out?
    Dr. Roffer. No, they're not speaking out. A lot of the 
problem becomes--with commercial fishermen and fishermen and, 
particularly, charter boat captains--in saying that their catch 
is decreasing is admitting to their potential clients that 
they're not catching fish anymore. So you're not going to get 
people in the Keys saying, ``Well, don't come down to the Keys 
anymore because the sailfish are in Charleston.'' So they're 
not saying it.
    They can't advertise--the fishermen saying that it's 
hurting us. Privately, they'll tell you. But, publicly, it's 
very hard to get their testimony because they're basically 
giving negative advertising for their business. The researchers 
can, in fact, tell this. The recreational fishermen can report 
it, and people like myself.
    Senator Nelson. And that's part of the problem. We're not 
willing to have an open discussion about this issue of what's 
happening to the Earth. For example, I was shocked, visiting 
some of the agencies under the jurisdiction of the Commerce 
Committee, highly technical agencies, NIST, NOAA, NASA, et 
cetera, and what I had found with regard to one of those 
agencies right at the turn of the new administration was that 
the word has gone out that they were not to use the two words, 
``climate change.''
    It has been reported here in the state of Florida that a 
similar edict--had gone out to all state employees--don't use 
``climate change.'' Now, if you can't even have a discussion 
about it, or alternatively, we see scientists--and I have seen 
this in Washington as well--attempt to be muzzled as to the 
free expression of what their scientific conclusions are on 
whatever the issue is, then I think we'd better get concerned 
and we'd better get vocal about this.
    Dr. Roffer. I agree. I'm constantly on social media, and 
I'm involved in a newsletter that goes out to quite a few 
people in the country, talking about such issues. 
Unfortunately, with the climate in D.C., the political climate, 
the words, ``climate change,'' has to be basically taken out of 
proposals. You have to use the words, environmental variability 
or environmental change. It means the same thing, but it's not 
that blow-up word when someone searching says, ``Oh, throw that 
out.''
    I have to give NASA a lot of credit. NASA has stayed within 
the climate change realm. I know I've been funded under a 
climate change with NASA, looking at bluefin tuna and highly 
migratory species, and they feel they're doing what's right for 
the country, and until they're forced to change, one way or the 
other, they're going to continue using the words, climate 
change. But, unfortunately, other agencies are forced not to 
use it, which I think is un-American.
    Senator Nelson. Let me ask--yes, ma'am. Ms. Sollie?
    Ms. Sollie. As leaders, we're involved in the conversation 
in-depth, and so we hear sea level rise or climate change. We 
know where our thoughts are going, and we want to plan for our 
future or protect our businesses or the constituents we serve. 
I think we need to come up with a methodology and education, 
even as an industry, to speak in more layman terms so that the 
general public understands what we're saying, and not in a 
threatening way, just to get it in their mindset.
    We're humans. We live on instant gratification, right? And 
so, again, this is something that's gradually affecting our 
lives. But until they can see an experience, understand it, I 
don't think we, behind these doors today, can get the momentum 
that we really need to be powerful.
    And I do want to add for the record that we're fortunate in 
Pinellas County. We are ahead of the curve. In 2006, Tampa Bay 
Regional Planning Council did a study on sea level rise, and I 
have it here with me. It depicts the acreage within the county 
that's actually protectable. So out of 109,000 acres, 78,770 
are in a protection--almost certain protective zone. So maybe 
we can plan as municipalities or counties to take steps so that 
we can demonstrate this to other regions on how we can start to 
address the issue.
    Senator Nelson. Yes, ma'am?
    Dr. Larkin. One of the mechanisms available to university 
researchers is to work with Florida Sea Grant College Program. 
It's a program that's housed at UF, but it represents all 
universities here in Florida. Through that program, there are 
local agents that help communicate the science to the public.
    I think what's really effective about that is that they all 
have advisory boards on different issues, so the members of 
those advisory boards are folks that--probably some of these 
folks in the room here today that really have a direct contact 
to folks on the shore, and we see them as an extremely valuable 
resource. I know that their funding was, you know, one of those 
ones that was highlighted to be cut, and I think some of it was 
allowed to be saved, which let us do a big sigh of relief. But 
they've been so effective. It's kind of like the example that 
you have been talking about. It's hard to imagine it was on the 
chopping block just because of how successful it has been, and 
it is a real valuable tool.
    Senator Nelson. That Sea Grant Program is within NOAA, and 
that is within the jurisdiction of the Commerce Committee, and 
one of those successes that you're talking about is what 
happened at Cedar Key. The fishermen have successfully 
transitioned to a clam aquaculture. Now, it has a $39 million 
value to the state of Florida.
    So, Dr. Larkin, further expand. How would cutting that 
investment, which is the proposal in the President's proposed 
budget, affect these natural resources impact jobs?
    Dr. Larkin. Right. I mean, you talked about the Cedar Key 
example, and that's just a really good one, because that is an 
example of where a fishery had used a particular gear--net 
gear--to harvest mullet, and because of a political vote by the 
public was immediately shut down. So it was devastating to a 
little community that probably most people had never heard of.
    But the training that ensued, the ideas for how we are 
going to address this issue with this community, started with 
public investment, and those Sea Grants agents were ground 
zero. They were in a very difficult position, I mean, 
retraining a whole community of folks that have spent their 
lives, generation after generation, fishing one way for one 
thing.
    So now you fast forward, and not only--you mentioned the 
commercial value of what's harvested. That industry, that type 
of investment, is almost like investing in a museum. It is an 
attraction. People now come because those businesses operate 
like little public aquariums. People can walk in, and they'll 
show them the process. They come and they now visit, and other 
private investment has ensued. There's a little artist colony 
there now. So it has seeded private investment and allowed that 
community to flourish, and there are other examples like that 
as well.
    Senator Nelson. As the Earth heats up--and I'm assuming 
that most everybody here understands the scientific reasons 
behind this, although there are people that deny that this is, 
in fact, happening. It's simply as the sun's rays come in and 
hit the Earth, part of the heat is absorbed, but a lot of that 
heat is reflected off the surface of the Earth and radiates 
back out into space. When you put certain gases, like carbon 
dioxide or methane into the air, and it goes into the upper 
atmosphere, it creates what is known as the greenhouse effect, 
like a greenhouse glass ceiling, and it traps the heat.
    Of course, as the Earth heats up, look what covers two-
thirds of the Earth--oceans, and the oceans absorb 90 percent 
of the heat. And when water is heated, what happens to it? It 
expands, and, thus, we are seeing the phenomenon that has been 
chronicled here by our panelists.
    One of you mentioned, I think, wells. Lo and behold, that's 
happened right here in a south Florida city. It's well field 
had to be moved further west because of the sea level rise and, 
therefore, the salt water intrusion into the well field. So 
it's happening, and it's going to cause great infrastructure 
investment.
    I want to ask the two mayors. Are city mayors starting to 
think about the investments that you're going to have to make 
because of the changes in the climate?
    Mr. Cretekos. Senator, the City of Clearwater was the first 
in the state and in the Southeast to have a natural gas 
refueling station, and we've started doing our vehicles--
natural gas vehicles. We've partnered with Duke Energy to be 
the first city in Pinellas County to finish LED lights on all 
of our street lights, and we have a green print program that we 
adopted about 5 years ago to put us on the path of 
sustainability.
    Senator Nelson. Mr. Mayor?
    Mr. Kriseman. Yes, we're--and I thank the council members 
that are here who have been also pushing these issues. We're 
embarking on an integrated sustainability action plan for the 
City of St. Petersburg. We're looking at doing a long-term plan 
that really takes into account both the impacts of climate 
change and sea level rise, in particular, on our city, because 
we've seen the maps and we know the risk that our city is at, 
and we know that we are going to have to make significant 
changes to how we conduct our government, but how we conduct 
our city.
    Our zoning changes are going to have to be implemented. How 
we build out is going to have to change. So we are looking at 
doing all those things in addition to a commitment to become 
100 percent renewables in the city.
    [Applause.]
    Senator Nelson. Commissioner, is this discussion in front 
of the county?
    Ms. Long. Yes, Senator, and I thank you very much for that 
question, because I want to share with everyone a real living 
example of how elections matter. This County Commission now 
uses the words, climate change, sea level rise, and 
sustainability, and when I first came on the County Commission 
5 years ago, I was stunned to learn that our county staff were 
not allowed to use those words in discussions with the 
commissioner.
    On top of that, we are planning--our county is--a 
sustainability and sea level rise, climate change conference in 
partnership with the Tampa Bay Regional Planning Council a few 
months from now. So I hope you'll stay tuned to that.
    On top of that, I am so proud that all of our facilities 
within county government have moved to things like LED 
lighting. We invested a lot of money into a cooling system in 
downtown Clearwater and worked with partnerships all over the 
City of Clearwater--the mayor is aware of this--and have saved 
over a million dollars a year in energy by using this cooling 
system.
    So the long answer to your question is yes. It is high on 
our list. We have many bridges in our county that need to be 
replaced, and one of the big deep dive discussions is how high 
do we have to build the new bridges in order to ensure that in 
the future our citizens will not be at risk again.
    One more thing, if I may be so bold, is to say elections 
matter. The issues we're talking about today are handled best 
by good, sound, public policy, and when we put people in office 
that don't believe in science, well, that's a problem, and we 
only have one Earth. Our oceans and our natural resources, our 
most important treasures--shame on us. What will our 
grandchildren say when they look back and go, ``What were you 
thinking?''
    [Applause.]
    Senator Nelson. Dr. Sanberg, you're the head of research. 
USF has been particularly positioned as one of the leaders of 
the Florida Institute of Oceanography led by the Dean that I 
think you introduced as the Dean--stand up, Dean.
    [Applause.]
    Senator Nelson. Thank you.
    The Florida Institute of Oceanography ends up being the 
recipient of some of the funds that we carved out in the 
RESTORE Act, specifically for researching the health of the 
Gulf in the future. Now, there's a lot of oil out there, and a 
lot of it is still lurking around the bottom of the Gulf.
    Do you want to comment on any of your future plans in the 
Gulf research?
    Dr. Sanberg. Sure. Of course, you have the experts right 
over there, so a comment, in general. I think that there are a 
few things. One is that the Florida Institute of Oceanography 
is a statewide institute, and it's housed here at USF and in 
St. Pete, a great place to be housed. But it's a collaboration 
between most marine groups around the state, and so when money 
comes in, it gets diffused, based on research projects around 
the state to look at all sorts of activities on all the coasts.
    The other thing that's a real advantage is that we had a 
new ship that was recently built, the Hogarth, and it is a 
superb world class ship to continue to do research out in the 
Gulf, especially to look at these problems and issues related 
to the oil that's out there, the current health of the Gulf, 
the fisheries, just a number of things.
    And the other thing is that students--one thing is we are a 
research university, but we have great students, and we have 
students that want to be out and work with these great 
professors that we have in marine sciences and all the other 
areas. So these activities are extremely educational. They're 
also STEM-related activities, which really helps a great deal 
in the education of future Floridians and to move into this 
field.
    The other thing I was just going to say, when I'm listening 
to all the witnesses here, speakers, is there are a number of 
things that you've brought up, and education, I think, is a key 
one, especially in tourism. We offer a master's in global 
sustainability with a concentration in tourism at USF. It's a 
very important program for us. And I guess the question, if I 
was going to ask one, is are there other educational programs 
for the Floridians of tomorrow that they could really train in 
and they could be helpful to all the industries that are being 
affected?
    Senator Nelson. Anybody want to comment on that? Is Dean 
Hogarth here? I would certainly want to recognize him, because 
he certainly worked with us on the oil spill. Let me ask you 
another question. One of you mentioned invasive species. So we 
know the problem with lionfish, the Burmese python. You could 
say the Burmese python is related to weather, because the only 
thing that we found, how you can get at this population, is a 
cold snap that is sustained over time. Otherwise, it's very 
difficult to find them, and the Park Service is thinking there 
might be 150,000 of them in the Everglades.
    Zika--infectious diseases, another byproduct. It's 
primarily in warm areas. Did any one of you who mentioned that 
want to expand on this?
    Yes, ma'am. Dr. Larkin?
    Dr. Larkin. If you'll allow me a moment, I do want to 
mention one thing. We talked about built environment solutions 
for dealing with global warming. There is a role for natural 
systems, too. So we all know that trees sequester carbon, and 
we have researchers that are working on creating new forages 
for cattle that will help reduce methane. So there's a variety 
of solutions.
    With respect to--and tourism. We have a Department of 
Tourism that also offers programs that, hopefully, will help in 
that scientific regard. The invasive species one is a good one. 
We have little beetles that are attacking our trees and our 
avocados.
    The pythons--so, actually, we have some researchers who 
just compared the effect of the cold snap between the American 
crocodile and the python, and, actually, what it found was 
while it knocked both populations down, it only had a long-term 
effect on the potential northern migration of the crocodile, 
not the python. So we are still concerned about it moving 
north.
    Senator Nelson. You know, we used to think that the 
python--by the way, have you seen the pictures? You know, they 
caught one that was 18 and a half feet long. You pick up one of 
these things, and it's 200 pounds, and it's solid muscle. We 
thought maybe they wouldn't go any further north than the humid 
marshy environment of the Everglades, but if there is 
increasing warming temperatures, you're right, Dr. Larkin. That 
snake is going to move north.
    Dr. Larkin. Right, and, you know, we know they're 
responsible for a loss of 95 percent of the rabbits and other 
small mammals in the Everglades.
    Ms. Sollie. And it wouldn't be good for the tourism 
industry either if they travel north.
    Senator Nelson. No.
    Dr. Larkin. Right. So, I mean, there's--you know, then you 
start affecting food web that's involved, and then you start 
affecting other of our iconic species.
    Senator Nelson. All right. Either one of our members of 
Congress have any further questions?
    [No verbal response.]
    Senator Nelson. Charlie?
    Mr. Crist. I'm good. Thank you.
    Ms. Ferenc. Senator, may I make another comment about a 
solution?
    Senator Nelson. Please.
    Ms. Ferenc. We talked about threats, and then there has 
been some talk of solutions, and there's been some success 
stories, and many of them seem to revolve around this notion of 
public-private partnership. I have had the honor to sit on the 
Travel and Tourism Advisory Board, and I know that there is 
also the Transportation Advisory Board. This is all at the 
Federal level. I believe Joe Lopano is in the audience from the 
Tampa Bay International Airport. I believe he sits on that 
advisory board at this time. And, of course, Brand USA is a 
public-private partnership.
    I've seen such amazing work done when the public sector and 
the private sector come together in that intense and sustained 
fashion, and that some of the problems that we're talking about 
today, you know, we saw these issues come before the Travel and 
Tourism Advisory Board, and the progress that we hope not to 
give up on now that was made during that time, during long, 
arduous battles between the private and the public sector, and 
coming to good solutions for both sides, for security and for 
increased travel, and many other issues that were brought up in 
that way. Transportation is one that was brought up in the last 
round and, of course, I'm sure is being discussed now in that 
particular partnership.
    But I think that these might be other issues that might be 
brought before the Travel and Tourism Advisory Board itself. Is 
climate change something that can be worked on there? Just the 
value of the public-private partnerships at the Federal level 
and at the State level, I think, is just truly amazing, and I 
offer that as a part of the solutions, to not forget how 
valuable they are.
    Dr. Roffer. As a closing comment, I would like to remind 
everyone on the panel and out in the audience that the true 
economic engine in Florida is a healthy ecosystem, which comes 
from clean air and clean water. That's the building block right 
there, and the solution to pollution is absolutely not 
dilution.
    [Applause.]
    Senator Nelson. Dr. Roffer, you had spoken--picking up on 
that theme there about stopping the pollution with regard to 
the Everglades--about fixing the plumbing and restoring the 
ecosystems. We have been working for a long time on Everglades 
restoration to stop or reverse what man had done over three-
quarters of a century, which was to completely reverse the 
natural plumbing of the Everglades, which sent the water 
southwest of Orlando as it moved slowly through the Kissimmee 
chain of the lakes, as it went into a marshy Lake Okeechobee 
after having come down a winding, meandering stream called the 
Kissimmee River, and then slowly went through the marshes south 
into the River of Grass, the Everglades.
    All of that was changed in three-quarters of a century. The 
Kissimmee River became a straight ditch, et cetera. You know 
the situation. Turning on the plumbing and reversing that 
requires sustained commitment from the Federal and the state 
government. Now, unbelievably, last month, the South Florida 
Water Management District threatened to pull out of the 
independent scientific assessment of restoration progress 
that's done every 2 years pursuant to Federal law.
    I think some counties are addressing the problem head-on, 
but it stops and starts with the effort to restore the 
Everglades, and it's going to affect Floridians mightily. What 
have you seen, Dr. Roffer, over the years on the ground--you're 
out there with the fishermen--the need for restoration of the 
Everglades?
    Dr. Roffer. I see fish dying, an increased number of fish 
kills, and I see water quality degrading very quickly, and our 
fishing industry is hurting, even though the charter boat 
captains won't admit that their catches are going down. I've 
talked to many people, and finally you get Hell's Bay Boats 
admitting publicly that they lost one-point-something million 
dollars because they couldn't sell boats in the central part of 
Florida.
    People are getting very frustrated. They believe that the 
fox is guarding the hen house, that some people in the sugar 
industry and agriculture are affecting these people in 
management and making them change their minds and opinions. And 
pulling out of a science-based committee to make the water flow 
is corruption, if you ask me. It may not be an actual dollar 
corruption, but certainly it's a mental corruption, and there 
might be money involved, but I'm not pointing fingers at this 
point.
    But, clearly, we need to get that flow to go back down as 
fast as we possibly can. Every day you read about somebody--
``Well, there's a reason we can't''--you can do it if you want 
to put your effort into it and going there.
    So people are starting to get--the public is starting to 
get more educated on the issue and starting to raise their 
signs and their posters. You see it. People who get elected and 
changes--if you get people--representatives--and not the ones 
here--I know in central Florida--that wouldn't care anything 
about environmental and water quality who all of a sudden 
started putting environment and water quality on their web 
pages and started to come to meetings.
    So if the grass roots people are out there, I honestly 
believe that the people, the grass root vote, will out-do the 
political money coming from those spots. The public has to 
raise their pitchforks, so to speak.
    [Applause.]
    Senator Nelson. We have had tremendous interest, and there 
were a number of people who requested to testify here at this 
hearing, and, obviously, we had to keep it within certain 
limits, thus, the four witnesses that we have. But I want to 
invite you for your testimony, if you will submit it, it will 
become a part of the written record. And I declare that the 
record will remain open for two weeks for additional members of 
the Senate Commerce Committee to submit additional memorandums 
and/or questions.
    So thank you all for coming today. This has been terrific. 
With that, the meeting is adjourned.
    Thank you.
    [Whereupon, at 2:56 p.m., the hearing was adjourned.]

                            A P P E N D I X



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                  [all]

                  This page intentionally left blank.




      
</pre></body></html>
